No. ____
IN THE
_________
EPIC SYSTEMS CORPORATION,
Petitioner,
v.
TATA CONSULTANCY SERVICES LIMITED &
TATA AMERICA INTERNATIONAL CORPORATION
(DBA TCS AMERICA),
Respondent.
________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
Rick Richmond
Michael T. Brody
Counsel of Record
Nick G. Saros
JENNER & BLOCK LLP
JENNER & BLOCK LLP
353 North Clark Street
633 West 5th Street,
Chicago, IL 60654
Los Angeles, CA 90071
(312) 222-9350
(213) 239-5100
mbrody@jenner.com
Kristin G. Noel
QUARLES & BRADY LLP
33 East Main Street
Madison, WI 53703
(608) 251-5000

i
QUESTION PRESENTED
In this case involving a proven theft of trade secrets
and other state law torts, a properly-instructed jury
awarded plaintiff Epic Systems Corporation (“Epic”)
$140 million in compensatory damages. The jury also
awarded punitive damages, which the district court
reduced to $280 million through its application of a
Wisconsin statute that caps punitive damages at two
times the compensatory award. On appeal, defendant
Tata Consulting Services (“TCS”) did not contest
liability but challenged the compensatory and punitive
damage awards. The Seventh Circuit upheld the
compensatory award and upheld Epic’s entitlement to
punitive damages. It found, however, that despite the
Wisconsin statute, which placed TCS on notice of the
risk a jury could award punitive damages up to the
defined multiple, the Due Process Clause of the United
States Constitution prohibited an award of punitive
damages in an amount greater than the amount of the
compensatory award. The question presented is as
follows:
Does a state statute that expressly caps punitive
damages at two times compensatory damages
satisfy the notice requirement of the Due Process
Clause such that a punitive damages award that
complies with the statute is constitutionally
sound under the Due Process Clause?

ii
PARTIES TO THE PROCEEDING
Petitioner, plaintiff-appellee/cross-appellant below,
is Epic Systems Corporation.
Respondents, defendants-appellants/cross-appellees
below, are Tata Consultancy Services Limited & Tata
America International Corporation (d/b/a TCS
America).
CORPORATE DISCLOSURE STATEMENT
Epic Systems Corporation is privately-held.
publicly-held entity owns 10% or more of its stock.

No

STATEMENT OF RELATED PROCEEDINGS
This case arises from the following proceedings:


Epic Systems Corp. v. Tata Consultancy Services
Ltd. & Tata America International Corp., d/b/a
TCS America, No. 14-CV-748 (W.D. Wis.)
(judgment entered October 3, 2017; post-trial
motions decided September 29, 2017 and March
22, 2019); and



Epic Systems Corp. v. Tata Consultancy Services
Ltd. & Tata America International Corp., d/b/a
TCS America, Nos. 19-1528 & 19-1613 (7th Cir.)
(opinion filed August 20, 2020, amended opinion
filed November 19, 2020, final rehearing petition
denied November 30, 2020).

iii
There are no other proceedings in state or federal
courts, or in this Court, directly related to this case
within the meaning of Supreme Court Rule 14.1(b)(iii).

iv
TABLE OF CONTENTS
QUESTION PRESENTED .............................................. i
PARTIES TO THE PROCEEDING ............................. ii
CORPORATE DISCLOSURE STATEMENT ............ ii
STATEMENT OF RELATED PROCEEDINGS ....... ii
TABLE OF APPENDICES ........................................... vi
TABLE OF AUTHORITIES ........................................ vii
OPINIONS BELOW ......................................................... 1
STATEMENT OF JURISDICTION ............................. 1
CONSTITUTIONAL PROVISION AND
STATUTES INVOLVED .......................................... 2
PETITION FOR A WRIT OF CERTIORARI ............ 4
STATEMENT OF THE CASE ....................................... 6
A. TCS’s Theft Of Epic’s Trade Secrets .................. 6
B. Proceedings In The District Court ...................... 8
C. Punitive Damage Award ....................................... 9
D. Proceedings In The Seventh Circuit ................. 11
REASONS FOR GRANTING THE WRIT ................ 13

v
I. The Decision Below Conflicts With This
Court’s Decisions And Decisions Of Other
Courts Of Appeals ...................................................... 13
A. This Court Has Held That The Due Process
Clause Requires That A Defendant Receive
Notice Of The Potential Severity Of A Punitive
Damage Award ..................................................... 14
B. The Decision Below Conflicts With Decisions Of
This And Other Courts, Including Decisions
Applying Statutory Caps .................................... 16
C. The Decision Below Is Inconsistent With The
History And Tradition Of Statutes Authorizing
Punitive or Exemplary Damages....................... 23
D. If The Decision Below Is Consistent With Gore
And Campbell, The Court Should Reconsider
Those Decisions .................................................... 25
II. This Case Presents An Appropriate Vehicle
For Review .................................................................. 26
CONCLUSION ................................................................ 27

vi
TABLE OF APPENDICES
Appendix A: Amended Opinion of the United
States Court of Appeals for the Seventh
Circuit, Nos. 19-1528 & 19-1613 (Nov. 19,
2020)................................................................. 1a-52a
Appendix B: Order of the United States Court
of Appeals for the Seventh Circuit
denying Epic’s petition for rehearing and
rehearing en banc (Nov. 19, 2020) ............. 53a-54a
Appendix C: Order of the United States Court
of Appeals for the Seventh Circuit
denying Tata’s petition for rehearing and
rehearing en banc (Nov. 30, 2020) ............. 55a-56a
Appendix D: Opinion and Order of the United
States District Court for the Western
District of Wisconsin, Epic Systems Corp.
v. Tata Consultancy Services Ltd. et al.,
No. 14-cv-00748 (W.D. Wis. Sept. 29,
2017)............................................................... 57a-86a
Appendix E: Judgment in a Civil Case of the
United States District Court for the
Western District of Wisconsin (W.D. Wis.
Oct. 3, 2017) .................................................. 87a-93a
Appendix F: Opinion and Order of the United
States District Court for the Western
District of Wisconsin (W.D. Wis. Mar. 22,
2019)............................................................. 94a-114a

vii
TABLE OF AUTHORITIES
Page(s)
Cases
Abner v. Kansas City Railroad Co.,
513 F.3d 154 (5th Cir. 2008)..................................... 19
Action Marine Inc. v. Continental Carbon,
Inc.,
481 F.3d 1302 (11th Cir. 2007)................................. 22
Arizona v. ASARCO LLC,
773 F.3d 1050 (9th Cir. 2014) (en banc)............ 19, 20
BMW of North America, Inc. v. Gore,
517 U.S. 559 (1996).................... 4, 5, 12, 15, 16, 17, 23
Brand Marketing Group LLC v. Intertek
Testing Services, N.A., Inc.,
801 F.3d 347 (3d Cir. 2015) ...................................... 22
Conwood Co. v. United States Tobacco Co.,
290 F.3d 768 (6th Cir. 2002)..................................... 24
Cote v. Philip Morris USA, Inc.,
985 F.3d 840 (11th Cir. 2021)................................... 22
EEOC v. AutoZone, Inc.,
707 F.3d 824 (7th Cir. 2013)..................................... 20

viii
Hewlett-Packard Co. v. Quanta Storage, Inc.,
961 F.3d 731 (5th Cir. 2020)..................................... 24
Kimble v. Land Concepts, Inc.,
845 N.W.2d 395 (Wis. 2014) ......................... 10, 16, 21
Luciano v. Olsten Corp.,
110 F.3d 210 (2d Cir. 1997) ................................ 20, 21
Pacific Mutual Life Insurance Co. v. Haslip,
499 U.S. 1 (1991)............................................ 14, 21, 25
Rainey v. Taylor,
941 F.3d 243 (7th Cir. 2019)..................................... 22
Ramirez v. TransUnion LLC,
951 F.3d 1008 (9th Cir.), cert. granted on
different issue, 141 S. Ct. 972 (2020) ...................... 22
State Farm Mutual Auto Insurance Co. v.
Campbell,
538 U.S. 408 (2003).................................... 4, 12, 15, 23
Town of Greece v. Galloway,
572 U.S. 565 (2014).................................................... 25
TXO Production Corp. v. Alliance Resources
Corp.,
509 U.S. 443 (1993).............................................. 14, 21
Zhang v. American Gem Seafoods Inc.,
339 F.3d 1020 (9th Cir. 2003)................................... 22

ix
Constitutional Provision
U.S. Const. amend. XIV .................................................. 2
Statutes
15 U.S.C. § 15(a) .............................................................. 24
18 U.S.C. § 1964(c) .......................................................... 24
28 U.S.C. § 1254(1) ............................................................ 2
35 U.S.C. § 284 ................................................................ 24
Ala. Code § 6-11-21(d) .................................................... 18
Alaska Stat. § 09.17.020(f) ............................................. 18
Alaska Stat. § 09.17.020(f-g).......................................... 23
Idaho Code Ann. § 6-1604(3) ................................... 18, 23
Ind. Code § 34-51-3-4 ................................................ 18, 23
N.C. Gen. Stat. Ann. § 1D-25 .................................. 18, 23
N.J. Stat. Ann. § 2A:15-5.14 .................................... 18, 23
Nev. Rev. Stat. § 42.005................................................. 18
Oh. Rev. Code § 2315.21(D)(2)(a) ................................. 18
S.C. Code Ann. § 15-32-530 ........................................... 23
S.C. Code Ann. § 15-32-530(A)...................................... 18
Tenn. Code Ann. § 29-39-104(a)(5) ............................... 18

x
Wis. Stat. § 895.043(6) ............................................ 3, 9, 16

OPINIONS BELOW
This Seventh Circuit’s original opinion in this case,
Epic Systems Corp. v. Tata Consultancy Services Ltd.,
is reported at 971 F.3d 662 (7th Cir. 2020).
The Seventh Circuit’s final opinion, amended upon
the denial of rehearing en banc, is reported at Epic
Systems Corp. v. Tata Consultancy Services Ltd., 980
F.3d 1117 (7th Cir. 2020). Pet. App. 1a-52a.
The opinions of the district court are reported at:


Epic Systems Corp. v. Tata Consultancy Services
Ltd., No. 14-cv-00748, 2017 WL 4357993 (W.D.
Wis. Sep. 29, 2017 (Opinion and Order Regarding
Post-Trial Motions, September 29, 2017) Pet.
1
App. 57a-86a.



Epic Systems Corp. v. Tata Consultancy Services
Ltd., No. 14-cv-00748, 2019 WL 1320297 (W.D.
Wis. Mar. 22, 2019) (Opinion and Order
Regarding Renewed Post-Trial Motions, March
22, 2019) Pet. App. 94a-114a.
STATEMENT OF JURISDICTION

The Seventh Circuit issued its original opinion on
August 20, 2020, a modified opinion on November 19,
2020 (Pet. App. 1a-52a), and issued orders denying
rehearing and rehearing en banc on November 19 and
1

Citations to “R._” are to the docket number of the record in the
district court proceeding, Epic Systems Corp. v. Tata Consultancy
Systems Limited et al., No. 3:14-cv-00748 (W.D. Wis.).

2
November 30, 2020, Pet. App. 53a-54a; Pet. App. 55a56a. On March 19, 2020, this Court “extended” the
deadline to file any petition for a writ of certiorari on or
after that date “to 150 days.” This Court has jurisdiction
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION AND
STATUTES INVOLVED
The Due Process Clause in the Fourteenth
Amendment to the United States Constitution
provides:
No State shall make or enforce any law which
shall . . . deprive any person of life, liberty, or
property, without due process of law . . . .
U.S. Const. amend. XIV.
Wisconsin law limits the amount of punitive damages
a plaintiff may recover. The Wisconsin statute provides,
in relevant part:
(6) Limitation on damages. Punitive damages
received by the plaintiff may not exceed twice the
amount of any compensatory damages recovered
by the plaintiff or $200,000, whichever is greater.
This subsection does not apply to a plaintiff
seeking punitive damages from a defendant
whose actions under sub. (3) included the
operation of a vehicle, including a motor vehicle
as defined under s. 340.01(35), an off-highway
motorcycle, as defined in s. 23.335(1)(q), a
snowmobile as defined under s. 340.01(58a), an all-

3
terrain vehicle as defined under s. 340.01(2g), a
utility terrain vehicle as defined under s.
23.33(1)(ng), and a boat as defined under s.
30.50(2), while under the influence of an
intoxicant to a degree that rendered the
defendant incapable of safe operation of the
vehicle. In this subsection, “intoxicant” has the
meaning given in s. 30.50(4e).
Wis. Stat. § 895.043(6).

4
PETITION FOR A WRIT OF CERTIORARI
In awarding punitive damages, “[e]lementary
notions of fairness enshrined in” the Due Process Clause
“dictate that a person receive fair notice . . . of the
severity of the penalty that a State may impose.” BMW
of N. Am., Inc. v. Gore, 517 U.S. 559, 574 (1996). See also
State Farm Mutual Auto. Ins. Co. v. Campbell, 538 U.S.
408, 416-17 (2003).
Effectuating these principles, Wisconsin established
statutory limits on punitive damages. At all times
relevant to this lawsuit, and with limited exceptions not
applicable here, a Wisconsin statute capped punitive
damages at $200,000 or two times the compensatory
award, whichever is greater.
In this case, the district court entered the jury’s $140
million compensatory award. The Seventh Circuit
affirmed. Pet. App. 14a-23a. The district court accepted
the jury’s verdict that Epic was entitled to punitive
damages under Wisconsin law. Again, the Seventh
Circuit affirmed.
Pet. App. 31a-39a.
Applying
Wisconsin’s statute, the district court reduced the jury’s
award of punitive damages to two times the
compensatory award. See id. at 31a. The Court of
Appeals agreed the award complied with Wisconsin’s
statutory cap. Id. at 51a.
The Seventh Circuit nonetheless held that the
punitive damage award was unlawful. The Seventh
Circuit imported a multi-factor test designed to limit a
jury’s standardless imposition of punitive damages and
engaged in its own discretionary analysis. Although

5
such awards have been permitted for hundreds of years,
the Seventh Circuit overrode the jury’s judgment to
invalidate a two to one punitive damages award. It held
in this case that the Due Process Clause does not permit
the award of punitive damages to exceed a one to one
ratio of compensatory to punitive damages. Id. at 50a51a, id. at 51a, n.6.
No decision of this Court has rejected a punitive
damage award of two times compensatory damages. No
decision of this Court, or any other, has found that a
jury’s award in compliance with a state’s statutory ratio
violates due process.
The Seventh Circuit’s belief that the Due Process
Clause would require a free-wheeling inquiry into, and
ultimate invalidation of, a punitive damages award of
two times the compensatory award cannot be squared
with history. As this Court noted in Gore, “[s]ome 65
different enactments during the period between 1275
and 1753 provided for double, treble, or quadruple
damages.” Gore, 517 U.S. at 580-81. Federal statutes—
from patent to antitrust—authorize or require similar
multiples of exemplary damages.
The Seventh Circuit’s unprecedented substitution of
its judgment for the judgment of the jury and the
Wisconsin legislature conflicts with decisions of this
Court and other courts evaluating punitive damages
under the Due Process Clause, while calling into
question a long tradition of statutes permitting treble
damages (or other multiples) in cases involving economic
loss.

6
This Court should grant certiorari to address
whether the Due Process Clause authorizes a court to
order a reduction of punitive damages notwithstanding
that a statute gave the defendant fair notice of the
severity of the penalty it faced.
STATEMENT OF THE CASE
A.

TCS’s Theft Of Epic’s Trade Secrets.

Epic is a worldwide leader in electronic medical
records. Pet. App. 3a. Healthcare providers use Epic’s
software to maintain the records of hundreds of millions
of patients. Id. at 3a-4a. Epic licenses its software to
clients, and customizes its software based on each
organization’s needs. Id.
The complexity of Epic’s health record system
requires customers to update and test their systems. Id.
at 3a. Frequently, customers hire consultants to assist
in this process. Pet. App. 4a. Epic provides its clients
with access to a web portal called “UserWeb,” which
contains confidential information about Epic’s software,
but Epic restricts access to UserWeb to those
individuals who possess Epic credentials. Id. at 3a-4a.
Epic does not permit consultants to access certain
features of Epic’s software. Id. at 4a.
Kaiser Permanente, Epic’s largest client, licensed a
version of Epic’s software. Id. at 4a. Kaiser hired Tata
Consulting Services (“TCS”) to assist it in implementing
Epic’s software across Kaiser’s extensive managed
healthcare organization. Id. at 4a-5a. TCS is a
worldwide consulting business that, in the year prior to

7
trial, earned $3.5 billion on total revenues of $15 billion.
R.870; R.898 at 106:17-21. In addition to providing
information technology services, TCS has its own
competing electronic health record software. Pet. App.
5a. Aware of this conflict, Epic refused to permit TCS
access to confidential information on UserWeb. TCS
requested greater access. Id. at 5a-6a. Epic refused. Id.
Without permission, TCS obtained unauthorized
access to UserWeb. Id. at 6a. TCS carried out its
scheme by hiring an employee of another software firm
who had previously obtained access to UserWeb by
falsely identifying himself as a Kaiser employee. Id.
Once hired, and at the direction and with the approval of
senior TCS managers, TCS shared the employee’s login
credentials with dozens of TCS employees who thereby
gained unauthorized access to UserWeb. Id. at 6a-7a.
TCS then downloaded thousands of documents
containing hundreds of thousands of pages of
information from UserWeb. Id. at 6a. Among the
documents TCS downloaded were those showing critical
features of Epic’s software. Id. at 6a-7a. TCS used at
least some of this information to assist in its attempt to
enter the United States electronic health records
market, to steal Epic’s clients, and to address gaps in its
own software. Id. Epic spent hundreds of millions of
dollars developing the confidential information that TCS
accessed and copied. Pet. App.66a-67a.
Ultimately, TCS’s conduct came to the attention of a
TCS employee not involved in the scheme. Pet. App. 7a8a. He reported his concerns to TCS, which did not
remedy the situation. Id. at 26a. The TCS whistleblower advised Kaiser and ultimately Epic. Id. at 8a.

8
After an investigation confirmed the TCS whistleblower’s account, Epic filed this suit. Id.
B.

Proceedings In The District Court.

Alleging claims under Wisconsin law, Epic sued TCS
in 2014 alleging theft of trade secrets and other claims.
Pet. App. 8a-9a.
Discovery did not go smoothly. During the discovery
process, Epic learned that TCS had failed to preserve
relevant evidence. Id. at 9a. Despite being a skilled
technology consulting company, TCS failed to preserve
electronic records that would have identified the TCS
employees who accessed UserWeb, as well as what
information was obtained. Pet. App. 20a. Instead, TCS
allowed critical information showing the extent of TCS’s
theft of trade secrets and its use of that information to
be overwritten, and their data lost, rather than
preserved. As directed by TCS management, TCS
pursued a self-described strategy to “suppress the
truth.” Pet. App. 74a-75a. The district court ultimately
sanctioned TCS for its conduct. Pet. App. 9a. The court
instructed the jury that it could, in defined
circumstances, draw an adverse inference against TCS
based on its discovery misconduct. Id.
The case went to trial in 2016. The district court
bifurcated the trial into liability and damage phases.
After the liability phase, the jury returned a verdict in
favor of Epic on all claims. Id.
In the damage phase, the jury heard evidence
concerning Epic’s injury. Id. at 9a-11a. TCS did not

9
present an alternative damage theory. Id. at 11a. After
deliberations, the jury awarded Epic a total of $240
million in compensatory damages in two categories:
$140 million for damages relating to TCS’s use of Epic’s
information in developing its comparative analysis of the
capabilities of Epic’s software to its own, and $100
million in damages for other uses of Epic’s information.
Id. On post-trial motions, the district court upheld the
$140 million award, but it set aside the $100 million in
damages for the other uses of Epic’s information. Id. at
12a. On appeal, the Seventh Circuit affirmed these
rulings of the district court. Id. at 14a-31a.
C.

Punitive Damage Award.

This petition concerns the punitive damages aspect
of the jury’s verdict.
Wisconsin law permits a jury to award punitive
damages to a plaintiff on certain tort claims, including
the claims Epic proved at trial. Pet. App. 31a-39a.
Under Wisconsin law, a jury may award punitive
damages where the defendant acted maliciously or in
intentional disregard of the plaintiff’s rights. Wis. Stat.
§ 895.043(6); Pet. App. 73a-75a.
Epic presented substantial evidence from which a
reasonable jury could conclude TCS intentionally
disregarded Epic’s rights. The evidence showed TCS
and its employees knew they were acting in violation of
Epic’s rights without any even arguably legitimate
purpose. Pet. App. 74a. The district court concluded
there was “ample basis” for the jury to find by a clear
and convincing evidence standard that TCS was aware

10
its employees were “blatantly disregarding Epic’s right
to restrict access and use of its trade secrets and
confidential information, and TCS chose to take no steps
to stop it.” Id. at 75a. The district court held Epic was
entitled to recover punitive damages, finding TCS’s
argument to the contrary was “meritless, if not
frivolous.” Id. at 73a.
In assessing the amount of punitive damages,
Wisconsin law permits a jury to consider the
grievousness of the defendant’s acts, its malicious intent,
whether the award reflects a reasonable relationship to
the compensatory award, the potential damage that
might have resulted from the defendant’s wrongful acts,
the relationship of the award to other penalties, and the
wealth of the wrongdoer. Kimble v. Land Concepts,
Inc., 845 N.W.2d 395, 400 (Wis. 2014) (citation omitted).
The jury was instructed on these elements of Wisconsin
law. R.872 at 5-6. TCS did not object to the jury
instruction. Pet. App. 73a.
In addition to evidence showing TCS’s intentional
and malicious violation of Epic’s rights, the jury heard
evidence supporting the need for a substantial punitive
damage award to punish and deter TCS. The jury heard
TCS had accessed and copied information critical to the
value of Epic’s records software business. Pet. App. 74a.
The jury heard that TCS’s employees forwarded Epic’s
confidential documents to individuals who did not even
work for TCS. Id. at 80a. The district court found this
evidence, coupled with the uncertainty as to the nature
of TCS’s internal use of Epic’s materials, supported
finding TCS’s actions exposed Epic to extraordinary
potential damages. Id. The jury also heard evidence of

11
TCS’s wealth. In the most recent year before trial, TCS
reported net profit of $3.5 billion on revenue in excess of
$15 billion. Pet. App. 79a; R.898 at 106:17-21 (revenue);
R.898 at 106:17-21 (profit).
The jury awarded Epic punitive damages of $700
million. Pet. App. 11A. In its first post-trial motion, TCS
argued the Wisconsin statute required the court to
reduce the punitive damage award to conform to the
statutory ratio. Pet. App. 75a. Epic acknowledged the
statutory cap applied to the award. Id. Having
eliminated the $100 million award of additional
compensatory damages, the district court applied the
Wisconsin statutory cap to the remaining $140 million
compensatory award and reduced the punitive damage
award to $280 million. Pet. App. 12a. The district court
found that this award complied with Wisconsin law and
the requirements of the Due Process Clause. Pet. App.
75a-80a.
D.

Proceedings In The Seventh Circuit.

TCS appealed and Epic cross-appealed. The Seventh
Circuit made the following rulings that are not at issue
in this petition: (1) it affirmed the jury’s compensatory
award of $140 million, Pet. App. 14a-23a; (2) it affirmed
the district court’s finding that Epic was entitled to
punitive damages, id., Pet. App. 36a-39a; (3) it affirmed
that the award of punitive damages complied with
Wisconsin law, Pet. App. 33a-36a; and (4) it rejected
Epic’s cross-appeal of the district court order setting
aside the additional $100 million in compensatory
damages. Pet. App. 23a-31a.

12
The Seventh Circuit then turned to the amount of
punitive damages the jury awarded. Citing this Court’s
rulings in Gore, 517 U.S. at 568, and Campbell, 538 U.S.
at 416-17, the Seventh Circuit held that the $280 million
award of punitive damages violated the United States
Constitution. Pet. App. 40a-51a. Focusing on the fact
that the compensatory damages were large and the
underlying claim involved economic loss, the Seventh
Circuit remanded the case for the entry of a new
punitive damage award not to exceed a one-to-one ratio
to the affirmed compensatory damages of $140 million.
Id. at 52a.
Epic sought rehearing on this limited issue. Epic
argued that because Wisconsin had a defined statutory
cap, TCS was on notice both of the conduct that could
trigger punitive damages and the severity of the penalty
that Wisconsin could impose. The statute provided the
notice required by the Due Process Clause. Where the
jury was properly instructed and the judgment complied
with the Wisconsin statute, as was the case here, the
concerns this Court has identified in applying the Due
Process Clause to awards of punitive damages were fully
met. See Seventh Circuit Dkt. No. 19-1528, App. Dkt. 59
(Epic Rehearing Pet.).
The Seventh Circuit ordered a response from TCS
and issued a modified opinion reflecting minor changes
from its original opinion. See id. App. Dkt. 60; Pet. App.
1a-52a. But the Seventh Circuit did not retreat from its
holding that the Due Process Clause did not permit the
entry of an award of punitive damages of two times the
compensatory damages, even though the punitive

13
damage award fully complied with the Wisconsin
2
Statute. See Pet. App. 40a-51a.
REASONS FOR GRANTING THE WRIT
I.

The Decision Below Conflicts With This
Court’s Decisions And Decisions Of Other
Courts Of Appeals.

This Court has held the Due Process Clause applies
to the award of punitive damages. In doing so, this
Court has explained the constitutional limitation on
punitive damages protects the right of civil defendants
to receive adequate pre-deprivation notice.
Wisconsin law provides unambiguous notice of the
circumstances in which a court may award punitive
damages, and that those damages may equal, but not
exceed, two times the compensatory award. This Court
should grant certiorari because the Seventh Circuit’s
holding that an award that complies with the Wisconsin
statute nonetheless violates the Due Process Clause is
inconsistent with decisions of this Court and other
courts of appeals.

2

TCS sought rehearing of other aspects of the Seventh Circuit’s
opinion. Seventh Circuit Dkt. No. 19-1528, App. Dkt. 57 (TCS
Rehearing Pet.). The Seventh Circuit did not invite a response to
TCS’s petition and denied the petition for rehearing in a separate
order issued on November 30, 2020. Pet. App. 55a-56a.

A.

14
This Court Has Held That The Due Process
Clause Requires That A Defendant Receive
Notice Of The Potential Severity Of A
Punitive Damage Award.

Over the past three decades, this Court has
considered whether punitive damage awards are subject
to limitations under the Due Process Clause on four
occasions. Twice it has held that such an award runs
afoul of the constitutional limit. This Court’s decisions
make clear that the Constitution limits a lower court’s
ability to award punitive damages where those damages
exceed the defendant’s prior notice of the potential for
punitive damages.
This Court first addressed the issue in Pacific
Mutual Life Insurance Co. v. Haslip, 499 U.S. 1 (1991),
an insurance fraud case. There, the Court observed that
“unlimited jury discretion—or unlimited judicial
discretion for that matter—in the fixing of punitive
damages may invite extreme results that jar one’s
constitutional sensibilities.” Id. at 18. But the Court
ultimately upheld a punitive damage award that was
more than four times the compensatory damage award.
Id. at 23-24.
Two years later, in TXO Production Corp. v.
Alliance Resources Corp., 509 U.S. 443 (1993), a divided
Court rejected the argument that a punitive damage
award that was 526 times greater than the award of
compensatory damage was “so excessive that it must be
deemed an arbitrary deprivation of property without
due process of law.” Id. at 453.

15
In 1996, this Court further clarified the basis for
construing the Due Process Clause to limit punitive
damages. Gore, 517 U.S. at 563. In Gore, the jury
awarded compensatory damages of $4,000; the lower
court upheld $2 million in punitive damages. Id. at 567.
This Court reversed, explaining that the amount of
punitive damages is a concern under the Due Process
Clause because “[e]lementary notions of fairness
enshrined in our constitutional jurisprudence dictate
that a person receive fair notice not only of the conduct
that will subject him to punishment, but also of the
severity of the penalty that a State may impose.” Id. at
574.
In its most recent case addressing the issue, State
Farm Mutual Automobile Insurance Co. v. Campbell,
538 U.S. 408 (2003), this Court reiterated that fair notice
is the due process principle at stake. Id. at 416-17. The
Court repeated Gore’s holding that “[e]lementary
notions of fairness enshrined in our constitutional
jurisprudence dictate that a person receive fair notice
not only of the conduct that will subject him to
punishment, but also of the severity of the penalty that
a State may impose.” Id. The Court added that
“common-law procedures” and the “imprecise manner in
which punitive damages systems are administered” are
insufficient to avoid the indiscriminate imposition of
punitive damages, with the resulting risk of a grossly
excessive award that “furthers no legitimate purpose
and constitutes an arbitrary deprivation of property.”
Id. at 417-18, citing Haslip, 499 U.S. at 42 (O’Connor, J.,
dissenting).

16
To be sure, the Court in Gore, and again in Campbell,
directed lower courts to consider “guideposts” in
evaluating punitive damage awards entered on common
law claims.
But the Court declined to impose
substantive limits; instead, those guideposts provide
direction for determining whether a defendant had fair
notice. In Gore, for instance, the Court reversed the
award of punitive damages because each of the
guideposts “indicate[] that BMW did not receive
adequate notice of the magnitude of the sanction that
[the state] might impose” for the violations of the state’s
law. 517 U.S. at 574-75.
B.

The Decision Below Conflicts With Decisions
Of This And Other Courts, Including
Decisions Applying Statutory Caps.

Wisconsin Statute Section 895.043 placed TCS on
notice of the possibility that wrongful conduct could give
rise to a punitive damage award of up to twice the
compensatory award. Wis. Stat. § 895.043(6). At all
times relevant to this dispute, TCS was aware not only
that its conduct could result in punitive damages, but
also of the severity of the penalty the State of Wisconsin
3
authorized juries to impose. The notice provided by the
3

The statute reflects a legislative balancing of the considerations
addressed by this Court in Gore, Campbell, and in other cases.
Wisconsin law permits the jury to consider factors addressed by this
Court in developing the guideposts, but further constrains the
award to a specific range defined by the statute. Compare Kimble,
845 N.W.2d at 400 (directing consideration of the grievousness of
the act, degree of malicious intent, the actual damage and potential
damage that may have been caused, the ratio of the award to
penalties that could be imposed for comparable misconduct, and the

17
statute, as well as the procedural protections afforded
TCS throughout the trial, post-trial proceedings, and on
appeal, which TCS has never questioned, satisfied the
due process requirements this Court has identified and
guarded against any arbitrary imposition of punitive
damages.
The Seventh Circuit, however, applied an
understanding of the Due Process Clause unmoored
from the fair notice rationale explained in Gore and
Campbell, and unsupported by any other due process
principle. The result is an opinion without precedent and
inconsistent with the decisions of this and other Courts.
1. Epic is not aware of any decision of any Court,
including this Court, finding a punitive damage award
that complies with a statutory ratio violates the Due
Process Clause.
Where the statute provides
unambiguous prior notice to the defendant of the
possible scope of punitive damages that its conduct may
trigger, the notice justification for due process review is
satisfied. Wisconsin’s two to one statutory ratio
prevents TCS from reasonably claiming it was not on
notice of the potential severity of its punishment, and
indeed it has never asserted that. Unlike the defendants
in Gore and Campbell, TCS could look to the statute
bad actor’s ability to pay) and R.872 at 6 (jury instruction directing
consideration of grievousness of acts, actual or potential damage,
and ability to pay) with Gore, 517 U.S. at 575-85 (consideration of
same factors). Compared to cases applying the Gore guideposts to
varying factual circumstances, see infra pp. 21-22, the Wisconsin
statute provided notice that was precise and guarded against the
indiscriminate imposition of punitive damages.

18
books for the range of potential punitive damages. The
Wisconsin statute gave TCS clear, fair notice of the
potential punishment it faced if it stole trade secrets and
confidential information Epic spent hundreds of millions
of dollars to create. TCS cannot claim surprise that it
was punished within the clear boundaries set by statute.
The Seventh Circuit lost sight of the reason for
constitutional review of punitive damage awards in the
first place: to assure that the defendant is on notice of
the potential severity of the punishment that state law
allows. In place of a clear and certain statute, the
Seventh Circuit substituted its interpretation of the
indefinite “guideposts” this Court has stated are
instructive where the law imposes no limit on a factfinder’s discretion to award punitive damages.
The Seventh Circuit’s ruling is inconsistent with
cases applying a different type of statutory cap. The
Wisconsin statute, as do many other state laws, defines
4
a maximum ratio of punitive to compensatory damages.
Other damage caps limit the total amount of
compensatory and punitive damages a plaintiff may
recover. In cases challenging awards under these

4

For example, statutes range from the two to one ratio codified in
Wisconsin to five to one. See, e.g., Oh. Rev. Code § 2315.21(D)(2)(a)
(two to one); Tenn. Code Ann. § 29-39-104(a)(5) (same); Idaho Code
Ann. § 6-1604(3) (three to one); Ind. Code § 34-51-3-4 (same); N.C.
Gen. Stat. Ann. § 1D-25 (same); Alaska Stat. § 09.17.020(f) (same);
Nev. Rev. Stat. § 42.005 (same); S.C. Code Ann. § 15-32-530(A)
(same); Ala. Code § 6-11-21(d) (same); and N.J. Stat. Ann. § 2A:155.14 (five to one).

19
statutes, courts have recognized the Gore factors have
limited, if any, applicability.
In Abner v. Kansas City Railroad Co., 513 F.3d 154
(5th Cir. 2008), a Title VII discrimination case, the
plaintiff was awarded $1 in nominal damages and
$125,000 in punitive damages. Id. at 156. Based on the
combination of the statutory cap and the high threshold
of culpability for any award of punitive damages, the
Fifth Circuit found the award was consistent with due
process. Id. at 164-65. The court explained that “[g]iven
that Congress has effectively set the tolerable
proportion, the three factor Gore analysis is relevant
only if the statutory cap itself offends due process.” Id.
at 164. In the case of a statutory ratio, the statute
establishes the tolerable proportion and, consistent with
due process, gives notice to the defendant of potential
5
severity of punishment.
The Ninth Circuit reached a similar conclusion in
Arizona v. ASARCO LLC, 773 F.3d 1050 (9th Cir. 2014)
(en banc). In that case, the district court upheld a jury
award of $1 in nominal damages and reduced the
punitive damages to comply with the statutory total
damage cap of $300,000. Id. at 1053. On appeal,
defendants challenged the punitive damage award under
Gore and Campbell. The en banc Ninth Circuit affirmed
the judgment. It held that its review “is different when
we consider a punitive damages award arising from a
5

Abner suggests this case may present a different question if the
state statute permitted an “intolerable” ratio. In this case,
however, where the statutory ratio is two to one, this issue is not
present.

20
statute that rigidly dictates the standard a jury must
apply in awarding punitive damages and narrowly caps
hard-to-quantify compensatory damages and punitive
damages.” Id. at 1055. In light of the statutory cap,
which the court observed gave the defendant adequate
notice of the severity of penalty that may be imposed,
the court held the “rigid application of the Gore
6
guidepost is less necessary or appropriate.” Id. at 1056.
The Second Circuit has also recognized that a
statutory cap changes the analysis, a principle the
Seventh Circuit ignored. Luciano v. Olsten Corp., 110
F.3d 210 (2d Cir. 1997). In Luciano, the Second Circuit
addressed a dollar-amount cap and concluded that a
court should reduce an award of punitive damages below
the relevant statutory cap only where that award would
“shock the judicial conscience and constitute a denial of
justice,” for example where it would “result in financial
ruin
of
the
defendant”
or
“constitute
a
disproportionately large percentage of a defendant’s net
worth,” substituting a different standard for Gore’s
6

Some courts have considered the Gore guidepost in these contexts,
but in so doing, have not reduced punitive damages. For example,
in EEOC v. AutoZone, Inc., 707 F.3d 824, 831 (7th Cir. 2013), a case
TCS cited below, the jury awarded $10,000 in compensatory
damages and $500,000 in punitive damages. The district court
reduced the punitive damages to $200,000 to comply with a
statutory cap. Defendant appealed; the EEOC did not cross-appeal.
The Seventh Circuit declined to reduce the punitive damages any
further. Id. at 838-40. It held that under the third Gore factor,
which looks to legislative direction, the legislature’s statutory cap
provided the clearest direction as to the appropriate punitive
damage award. That analysis supports honoring the Wisconsin
statutory cap in this case.

21
guideposts entirely. Id. at 221. Wisconsin law expressly
permits consideration of a defendant’s ability to pay,
providing a common law basis for a jury or a reviewing
court to avoid the risk of ruinous punitive damages
identified by the Second Circuit. Kimble, 845 N.W.2d at
7
400.
The decisions in Abner, ASARCO, and Luciano
recognize that the Gore guideposts have limited, if any,
applicability to the review of punitive damages awarded
under a statutory cap. At a minimum, these decisions of
the Second, Fifth, and en banc Ninth Circuits
demonstrate a clear conflict with the Seventh Circuit’s
approach.
2. Even in the absence of statutory caps, courts
have approved similar punitive awards. No decision of
this Court has rejected a punitive damage award that
presents a two to one ratio. In Haslip, the Court upheld
the punitive damage award of more than four times
compensatory damages. 499 U.S. at 23. And the Court
has upheld awards reflecting higher multiples. See TXO
Production Corp., 509 U.S. 443 (1993) (affirming, in a
fractured decision, an award for $19,000 in compensatory
damages and $10 million in punitive damages—a ratio of
526 to 1).
Other courts of appeals have upheld substantial
punitive damage awards involving ratios of two to one or
7

In this case, financial ruin is not an issue. TCS has never asserted
that paying $280 million in punitive damages would impoverish it.
The jury heard evidence that TCS’s profit in 2014 was in excess of
$3.5 billion. R.898 at 106:17-21.

22
greater. For example, the Ninth Circuit concluded that
the ratio resulting from a $2.6 million punitive damage
award compared to a $360,000 compensatory damage
award—“slightly more than seven to one”—was not
constitutionally excessive. Zhang v. Am. Gem Seafoods
Inc., 339 F.3d 1020, 1044 (9th Cir. 2003) (“We are aware
of no Supreme Court or Ninth Circuit case disapproving
of a single-digit ratio between punitive and
compensatory damages, and we decline to extend the
law in this case.”). The Eleventh Circuit found a ratio of
punitive to compensatory damages of five to one to be
constitutional in a pollution case. Action Marine Inc. v.
Cont’l Carbon, Inc., 481 F.3d 1302, 1321-22 (11th Cir.
2007); see also Cote v. Philip Morris USA, Inc., 985 F.3d
840 (11th Cir. 2021) (upholding punitive damages award
of approximately $20.7 million, or roughly 3.3 times the
amount of compensatory damage award). Further, the
Ninth Circuit in Ramirez v. TransUnion LLC concluded
that a punitive damages award resulting in a four to one
ratio for violations of the Fair Credit Reporting Act was
constitutionally sound. 951 F.3d 1008, 1037 (9th Cir.),
cert. granted on different issue, 141 S. Ct. 972 (2020). See
also Brand Mktg. Grp. LLC v. Intertek Testing Servs.,
N.A., Inc., 801 F.3d 347, 362-66 (3d Cir. 2015) (upholding
a punitive to compensatory ratio of approximately five
to one); Rainey v. Taylor, 941 F.3d 243, 255 (7th Cir.
2019) (upholding a ratio of approximately six to one).

C.

23
The Decision Below Is Inconsistent With The
History And
Tradition Of Statutes
Authorizing
Punitive
or
Exemplary
Damages.

The Seventh Circuit’s substitution of its judgment
for the judgment of the jury and the Wisconsin
legislature, and its resulting reduction of the punitive
damage award, ignore hundreds of years of history and
tradition permitting exemplary damages of twice the
compensatory award—that is, treble damages—in
circumstances such as these. This Court has recognized
the “long pedigree” of “English statutes authorizing the
award of multiple damages for particular wrongs.” Gore,
517 U.S. at 580-81. The Court has described a “long
legislative history, dating back over 700 years and going
forward to today, providing for sanctions of double,
triple, or quadruple damages to deter and punish.”
Campbell, 538 U.S. at 425.
This longstanding tradition is a continuing one. State
legislatures have authorized punitive awards of double,
triple, or more damages in various contexts, including
those resulting in economic harm. See, e.g., N.J. Stat.
Ann. § 2A:15-5.14 (capping punitive damages at five
times the amount of compensatory damages); Alaska
Stat. § 09.17.020(f-g) (capping punitive damages at three
or four times the amount of compensatory damages
awarded, depending on the underlying facts); see also
Idaho Code Ann. § 6-1604(3); Ind. Code § 34-51-3-4; N.C.
Gen. Stat. Ann. § 1D-25 (each providing for punitive
damages up to three times the amount of compensatory
damages awarded); S.C. Code Ann. § 15-32-530 (setting

24
punitive damages caps at three times and four times the
amount of compensatory damages).
And the tradition supports awarding treble damages
for wrongs resulting in only economic loss. For example,
the Sherman Act, as amended by the Clayton Act,
requires a prevailing party in a private antitrust action
to recover “threefold the damages by him sustained” in
addition to the cost of the suit and reasonable attorney’s
fees. 15 U.S.C. § 15(a) (providing that the prevailing
party “shall recover threefold damages”). Similarly,
patent laws authorize treble damages, as does the RICO
statute. See 35 U.S.C. § 284 (providing for up to treble
damages for patent infringement); 18 U.S.C. § 1964(c)
(providing that a prevailing plaintiff “shall recover
threefold the damages he sustains” in a private RICO
action). As here, damages awarded under these federal
statutes permitting treble damages compensate a
plaintiff for injuries that are typically economic. Even
where such awards are substantial, they are statutorily
permitted and have not been found to infringe upon a
8
defendant’s due process rights. The same also is true
with Wisconsin’s statutory cap permitting treble
damages.
The long tradition of permitting, and sometimes
requiring, treble (or higher) damages in cases involving
substantial economic loss should inform the meaning of
8

See, e.g., Hewlett-Packard Co. v. Quanta Storage, Inc., 961 F.3d 731
(5th Cir. 2020) (affirming judgment of $438,650,000 on compensatory
award of $176 million); Conwood Co. v. United States Tobacco Co.,
290 F.3d 768 (6th Cir. 2002) (affirming $1.05 billion judgment on
compensatory award of $350 million).

25
due process rights, just as this Court has considered
prior practice and has been mindful of the tradition of
punitive damages in prior decisions. See, e.g., Haslip,
499 U.S. at 9-12; see generally Town of Greece v.
Galloway, 572 U.S. 565, 576-77 (2014) (in Establishment
Clause case, Court holds Constitution must be
interpreted in light of historical practices and
understandings). This case provides the Court with the
opportunity to reinforce that historical tradition and
limit lower courts’ ad hoc dissection of jury awards
already deemed reasonable under state statutory caps,
which themselves provide the notice due process
requires in connection with an award of punitive
damages.
D.

If The Decision Below Is Consistent With
Gore And Campbell, The Court Should
Reconsider Those Decisions.

The Seventh Circuit’s decision should be reviewed
because it conflicts with the decisions of this Court, the
constitutional underpinnings of any review of punitive
damages under the Due Process Clause, and decisions of
other courts of appeals. If, however, this Court
concludes that the Seventh Circuit’s decision is
consistent with Gore, Campbell, and other precedents,
this Court should reconsider those cases in the context
of statutes providing notice of the range of acceptable
punitive damages and limiting the range of potential
punishment.
The Seventh Circuit’s decision permits an appellate
court to apply its own judgment, constrained only by
individualistic guideposts, to reject a punitive damage

26
award otherwise authorized by statute and found by the
jury to be supported by the evidence. If permitted to
stand, the Seventh Circuit’s decision will empower
courts reviewing verdicts entered on statutory causes of
action and other claims constrained by statutes to
substitute their own judgment for the considered
judgment of the political branches. In cases with
statutory caps, courts do not act in a vacuum—the
legislature has already defined the applicable limits. If
the decision below is consistent with this Court’s
precedents, the Court should reconsider those
precedents and decide whether the Due Process Clause
operates as an independent, substantive limitation,
notwithstanding state and federal statutes authorizing
specific, defined punishment for violations of the law.
II.

This Case Presents An Appropriate Vehicle
For Review.

Although this case may have begun as a factually and
legally complicated dispute, it has narrowed to the single
issue raised in this petition regarding the application of
Gore and Campbell to statutory caps providing notice of
punitive damages.
Liability is no longer disputed, as TCS has now
conceded liability. The Seventh Circuit has determined
that the award of compensatory damages was correct as
a matter of Wisconsin law. The Seventh Circuit also has
resolved issues relating to Epic’s entitlement to punitive
damages. That Court has rejected TCS’s claim that
certain issues relating to punitive damages must be
retried. At this stage, there are no issues that would

27
interfere with this Court’s consideration of the single
issue raised in this petition.
The case thus cleanly presents the legal issue of
whether there is any role for due process review where
the legislature has enacted a reasonable cap on punitive
damages that gives all entities subject to its laws ample
notice of the potential for punitive damages and the
potential severity of any punitive damage award.
Moreover, the statutory ratio selected by the Wisconsin
Legislature—a ratio of two to one—does not approach
the limits of this Court’s prior cases. To the contrary,
the Wisconsin statutory ratio is in accord with
established law stretching back decades, if not centuries,
permitting or requiring such punitive or exemplary
damages in similar circumstances.
CONCLUSION
For the foregoing reasons, the Court should grant
the Petition.

28
April 6, 2021
Rick Richmond
Nick G. Saros
JENNER & BLOCK LLP
633 West 5th Street
Los Angeles, CA 90071
(213) 239-5100

Michael T. Brody
Counsel of Record
JENNER & BLOCK LLP
353 North Clark Street
Chicago, IL 60654
(312) 222-9350
mbrody@jenner.com

Kristin G. Noel
QUARLES & BRADY LLP
33 East Main Street
Madison, WI 53703
(608) 251-5000
Counsel for Petitioner Epic Systems Corporation

1a
Appendix A

In the
United States Court of Appeals
For the Seventh Circuit
_________
Nos. 19-1528 & 19-1613
EPIC SYSTEMS CORP.,
Plaintiff/Counterclaim DefendantAppellee/Cross-Appellant,
v.
TATA CONSULTANCY SERVICES LTD. & TATA AMERICA
INTERNATIONAL CORP. D/B/A TCS AMERICA,
Defendants/Counterclaim PlaintiffsAppellants/Cross-Appellees.

_________

Appeals from the United States District Court for the
Western District of Wisconsin.
No. 14-cv-748 – William M. Conley, Judge.

_________

ARGUED JANUARY 16, 2020 – DECIDED AUGUST 20, 2020
AMENDED NOVEMBER 19, 2020

_________

2a
Before FLAUM, MANION, and KANNE, Circuit
Judges.
KANNE, Circuit Judge. Without permission from
1
Epic Systems, Tata Consultancy Services (“TCS”)
downloaded, from 2012 to 2014, thousands of documents
containing Epic’s confidential information and trade
secrets. TCS used some of this information to create a
“comparative analysis”—a spreadsheet comparing
TCS’s health-record software (called “Med Mantra”) to
Epic’s software. TCS’s internal communications show
that TCS used this spreadsheet in an attempt to enter
the United States health-record-software market, steal
Epic’s client, and address key gaps in TCS’s own Med
Mantra software.
Epic sued TCS, alleging that TCS unlawfully
accessed and used Epic’s confidential information and
trade secrets. A jury ruled in Epic’s favor on all claims,
including multiple Wisconsin tort claims. The jury then
awarded Epic $140 million in compensatory damages, for
the benefit TCS received from using the comparativeanalysis spreadsheet; $100 million for the benefit TCS
received from using Epic’s other confidential
information; and $700 million in punitive damages for
TCS’s conduct.
Ruling on TCS’s motions for judgment as a matter of
law, the district court upheld the $140 million
1

Tata Consultancy Services Limited is an Indian company; Tata
America International Corp. is a New York corporation that is
wholly owned by Tata Consultancy Services. We refer to these
companies collectively as “TCS.”

3a
compensatory award and vacated the $100 million
award. It then reduced the punitive-damages award to
$280 million, reflecting Wisconsin’s statutory punitivedamages cap. Both parties appealed different aspects of
the district court’s rulings.
We agree with the district court that there is
sufficient evidence for the jury’s $140 million verdict
based on TCS’s use of the comparative analysis, but not
for the $100 million verdict for uses of “other
information.” We also agree with the district court that
the jury could punish TCS by imposing punitivedamages. But the $280 million punitive-damages award
is constitutionally excessive, so we remand to the
district court with instructions to reduce the punitive
damages award.
I. BACKGROUND
Epic Systems is a leading developer of electronichealth-record software. This software aims to improve
patients’ quality of care by keeping relevant information
about patients— like patient schedules and billing
records—in a central location. Epic provides versions of
this software to some of the top hospitals in the United
States. Each customer licenses from Epic software
applications (modules) to fit the customer’s specific
needs. The customer can then customize the software to
ensure it operates properly within the customer’s
organizational structure.
The complexity of Epic’s health-record system
requires Epic’s customers to consistently update and
test their systems. To facilitate this process, Epic

4a
provides its customers with access to a web portal called
“UserWeb.” UserWeb provides various resources—
including administrative guides, training materials, and
software updates—and it also supplies an online forum
where Epic’s customers can share information.
Along with these helpful resources, UserWeb
contains confidential information about Epic’s healthrecord software. To protect this information, Epic
restricts who can access the UserWeb portal. Epic’s
customers, who have access, are required to maintain
the confidentiality of this information, and they are
expected to allow specific individuals access to this
sensitive information on a “need-to-know” basis only.
To guard this confidentiality, Epic allows only
credentialed users to access UserWeb; to get
credentialed, users must prove they are either a
customer or a consultant. Customers get access to all
features and documents related to the modules they
license from Epic. Consultants—who are hired by
customers to implement and test Epic’s software—
cannot access features like the discussion forum and
training materials.
In 2003, Kaiser Permanente—the largest managedhealthcare organization in the United States—obtained
a license from Epic to use KP HealthConnect, a Kaiserspecific version of Epic’s electronic-health-record
software. Because of Kaiser’s size, implementation of
KP HealthConnect is highly complex; testing and
tweaking it after each update is complicated and time
consuming.

5a
For help with these tasks, Kaiser hired TCS in 2011.
TCS provides information-technology services, like
software testing and consulting, on a global basis. But
TCS also has its own electronic-health-record software,
Med Mantra, which at the time was predominately sold
in India.
Epic was aware of this conflict of interest and was
concerned about TCS’s relationship with Kaiser. Still,
Kaiser used TCS to test KP HealthConnect. But to
fulfill its obligation of confidentiality to Epic, Kaiser
imposed rules for TCS to follow while working on
Kaiser’s account.
First, TCS was required to perform all services
related to KP HealthConnect at Kaiser offices in the
United States or off-shore development centers—
approved facilities outside the United States.
Second, TCS was required to follow strict security
protocols at the offshore development centers. Desktop
computers used to work on KP HealthConnect could be
used only for Kaiser-related work. To ensure these
computers could not access the internet or TCS’s email
system, a firewall was installed. Other computers at the
offshore facilities could access TCS’s network and email
system but were not allowed to access KP
HealthConnect material.
TCS, while operating under these strict
requirements, provided testing and support services to
Kaiser. But TCS employees claimed they could perform
the required tasks more efficiently if they had full access

6a
to UserWeb. Kaiser repeatedly asked Epic to grant
TCS this access; Epic repeatedly declined to do so.
Unsatisfied with this lack of access, in late 2011, TCS
found a way to gain unfettered access to all the
information available on UserWeb: the key was Ramesh
Gajaram. TCS hired Gajaram to work on the Kaiser
account from an offshore development center in
Chennai, India. Before working for TCS, Gajaram
worked for a different company that also helped Kaiser
test KP HealthConnect. While working for that
company, Gajaram falsely identified himself to Epic as a
Kaiser employee, and Epic granted Gajaram full access
to UserWeb.
Gajaram informed his superior at TCS, Mukesh
Kumar, that he still had access to UserWeb. At Kumar’s
request, Gajaram accessed the UserWeb portal.
Gajaram also shared his login credentials with other
employees at the Chennai off-shore development center.
A few years later, Gajaram transferred to TCS’s
Portland, Oregon office; he again shared his UserWeb
login credentials with at least one other TCS employee.
Thanks to Gajaram’s actions, dozens of TCS
employees gained unauthorized access to UserWeb.
And from 2012 to 2014, TCS employees accessed
UserWeb thousands of times and downloaded over 6,000
documents (1,600 unique documents) totaling over
150,000 pages. These documents contained Epic’s
confidential information, including some of its trade
secrets. And not all of this information related to TCS’s
work for Kaiser; employees downloaded information

7a
related to a medical-laboratory module that Kaiser does
not license from Epic.
This unauthorized access came to light in early 2014,
when Philip Guionnet, a TCS employee, attended
meetings concerning the Med Mantra software. At the
first meeting, Guionnet observed a demonstration of
Med Mantra for Kaiser executives. Guionnet was
“astounded”; he had seen Med Mantra several times
before and believed the software had dramatically
improved.
After this meeting, Guionnet was concerned that
“some of the information from Kaiser had been used to
improve Med Mantra.” So, Guionnet visited the Med
Mantra product development team. During his visit, a
TCS employee showed Guionnet a spreadsheet that
compared Med Mantra to Epic’s electronic-healthrecord software. The spreadsheet compared, in some
detail, the functionalities of the two products. Guionnet
believed this spreadsheet confirmed his suspicion that
information regarding Kaiser’s version of Epic’s
software had been used to improve Med Mantra.
Guionnet then asked for a copy of this spreadsheet.
What he received instead was a less-detailed document
referred to as the “comparative analysis.”
The comparative analysis—a key document in this
appeal—was created as a part of TCS’s effort to see if it
could sell Med Mantra in the United States. Specifically,
TCS wanted to sell Med Mantra directly to Kaiser, who
was using Epic’s software, and wanted to be sure that
“key gaps” in Med Mantra were addressed before this
attempted sale. So, TCS gave a consultant from the Med

8a
Mantra team the task of creating a comparison between
Med Mantra and Epic’s software. In doing so, this
employee worked with “Subject Matter Experts”—
employees who had experience with Epic’s software—
and created the comparative analysis that was
ultimately sent to Guionnet.
The comparative analysis is an 11-page spreadsheet
that compares Med Mantra to Epic’s software. The first
page lists 33 modules, and it notes whether the module
is available in Med Mantra and Epic’s software; the next
10 pages list Med Mantra’s functions and note whether
Epic’s software contains the same functions. Multiple
TCS employees confirmed that the information used in
2
this comparative analysis is not publicly available.
Guionnet—after attending these meetings and
viewing the comparative analysis—reported his
concerns in June 2014 to TCS, Kaiser, and Epic
employees. Epic and Kaiser immediately investigated
Guionnet’s claim and discovered that TCS employees
had gained unauthorized access to UserWeb. But TCS
employees were less than forthcoming during Kaiser’s
investigation; multiple TCS employees lied to
investigators about TCS’s access to UserWeb.
A few months later, Epic filed suit against TCS,
alleging that TCS used fraudulent means to access and
steal Epic’s trade secrets and other confidential
2

In fact, TCS was barred from arguing that the comparative
analysis was created from information in publicly available sources
because it failed to “direct the court to any evidence that the
comparative analysis was created from such sources.”

9a
information.
During a contentious year-and-a-half
discovery process, Epic learned that TCS had failed to
preserve relevant evidence.
The district court
sanctioned TCS for its discovery failures by ultimately
providing the jury with an adverse-inference
instruction:
If you find by a preponderance of the evidence
that Epic has proven TCS both: (1) intentionally
destroyed evidence (or intentionally caused
evidence to be destroyed), and (2) caused the
evidence to be destroyed in bad faith, then you
may assume that this evidence contained
information helpful to Epic and harmful to TCS.
The district court bifurcated proceedings into a
liability phase and a damages phase. The liability phase
began in April 2016. The jury returned a verdict in favor
of Epic on all claims, including those under Wisconsin
law
for
breach
of
contract,
fraudulent
misrepresentation, misappropriation of trade secrets,
unfair competition, deprivation of property, and unjust
enrichment.
Before the damages phase of trial, Epic presented
the district court with evidence it sought to present to
the jury regarding the benefit TCS received by using
Epic’s confidential information and trade secrets. Epic’s
expert, Thomas Britven, initially based his damages
calculation on costs Epic incurred developing the
modules underlying all the documents TCS stole. But
the district court concluded that the evidence did not
support Epic’s broad claims of the use to which TCS put
the stolen information. The district court accordingly

10a
rejected Epic’s initial damages proffer but gave Epic
another opportunity to present evidence of TCS’s uses
of the stolen information and the value of those uses to
TCS.
Epic went back to the drawing board and returned to
the district court with a new, more limited theory of
damages. Britven based his new calculation on only the
confidential information and trade secrets that were
incorporated into the comparative analysis spreadsheet.
This calculation still used a proxy for the benefit TCS
received: the costs Epic incurred in developing these
specific software modules—accounting for coding costs
that did not benefit TCS and technology decay over
time. The district court accepted this “ratchet[ed] back”
damages theory, noting the new calculation “more
approximates what was actually received and
apparently used by [TCS] both in the comparative model
but also what were ongoing discussions by marketing
people within [TCS].”
During the damages trial, Epic presented two
witnesses: Stirling Martin and Britven. Martin used a
chart that both identified which Epic modules were
reflected in TCS’s downloads and identified, with a
checkmark, which of these modules were reflected in the
comparative analysis. Martin testified about what
stolen information was incorporated into the
comparative analysis.
Britven then presented a
calculation of the value TCS received by avoiding
research and development costs they would have
incurred without the stolen information. First, Britven
identified how much it cost Epic to develop the modules
related to the trade secrets and confidential information

11a
that made their way into the comparative analysis.
Then, Britven adjusted this number based on certain
coding costs (which conferred no benefit on TCS) and the
decay in the value of technology over time. He reached
an approximate benefit to TCS of about $200 million.
TCS called its damages expert—Brent Bersin—to
testify about the value of the benefit TCS received
related to the comparative analysis. Bersin testified
that Epic was not entitled to an award of economic
damages, but he also testified that Britven incorrectly
calculated the damages. Specifically, Bersin pointed out
that Britven’s calculation failed to account for reduced
labor costs in India; TCS could pay its India-based
engineers about 30% to 40% less than Epic would have
to pay its engineers to develop the same software.
At the end of the damages trial, the district court
gave the jury a special-verdict form concerning
compensatory damages.
The jury was asked to
determine the amount of damages, if any, to which Epic
was entitled based on (a) the “Benefit of TCS’s Use of
[the] Comparative Analysis,” and (b) the “Benefit of
TCS’s Use of Other Confidential Information.” The jury
was also asked to determine whether Epic should be
awarded punitive damages, and if so, in what amount.
The jury returned a $940 million total damages
award: $140 million for uses of the comparative analysis,
$100 million for uses of “other” confidential information,
and $700 million in punitive damages. The district court
entered an injunction prohibiting TCS from using,
possessing, or retaining any of Epic’s trade secrets or
confidential information.

12a
The court then addressed several post-trial motions,
including TCS’s three motions for judgment as a matter
of law on liability and damages. Fed. R. Civ. P. 50(a).
The district court upheld the jury’s liability verdict and
its $140 million compensatory-damages award based on
TCS’s uses of the comparative analysis, which contained
Epic’s information. But the district court struck the
$100 million compensatory award for “other uses” of
Epic’s confidential information and also reduced the
punitive-damages award to $280 million based on a
Wisconsin statutory cap on punitive damages. See Wis.
Stat. § 895.043(6).
TCS then filed a post-judgment motion under Rules
50(b) and 59, again seeking judgment as a matter of law,
or in the alternative, a new trial. But this motion
“largely repeat[ed] the same arguments previously
raised in [TCS’s] Rule 50(a) motion.” The district court
denied this new motion, leaving intact the $140 million
compensatory award based on the comparative analysis.
It also upheld the previously reduced $280 million
punitive-damages award, noting that its prior decision to
vacate part of the compensatory-damages award “does
not undermine the jury’s award of punitive damages.”
II. ANALYSIS
Both parties appealed different aspects of the district
court’s post-trial rulings. TCS challenges the district
court’s decision to leave intact the $140 million
compensatory award related to the comparative
analysis. TCS also challenges the district court’s
punitive damages decisions. On cross-appeal, Epic
challenges the district court’s decision to vacate the $100

13a
million compensatory award based on “other uses” of
Epic’s confidential information.
We first note what law applies to these appeals.
Jurisdiction in this case is based on diversity of
citizenship and a federal question (with supplemental
jurisdiction over the state-law claims). When hearing
state-law claims that arise under diversity jurisdiction,
28 U.S.C. § 1332, or supplemental jurisdiction, id. § 1367,
federal courts are “obliged to follow state decisional law,
as well as all other state law.” Houben v. Telular Corp.,
309 F.3d 1028, 1032 (7th Cir. 2002). And when a federal
jury awards compensatory damages based on a statelaw claim, state law applies to our review of that
damages award. Kaiser v. Johnson & Johnson, 947 F.3d
996, 1019 (7th Cir. 2020). Similarly, when state law
provides the basis for liability, the punitive-damages
award must be consistent with state law.
See
Kapelanski v. Johnson, 390 F.3d 525, 534 (7th Cir. 2004).
Epic’s damages award for unjust enrichment was
based on its claims under Wisconsin law for
misappropriation of its trade secrets and confidential
information. And its award of punitive damages had to
be based on Epic’s Wisconsin law “trade secrets,
fraudulent misrepresentation[,] and unfair competition
claims.”
Wisconsin law therefore applies to the parties’
substantive challenges of these damages awards. With
that in mind, we address the parties’ challenges to the
district court’s decisions regarding compensatory
damages. We then turn to TCS’s arguments concerning
punitive damages.

14a
A. “Comparative Analysis” Compensatory Award
The jury awarded Epic $140 million in compensatory
damages based on the benefit TCS derived from using
the comparative analysis, which contained some of
Epic’s confidential information. The district court
upheld this award on two occasions: first, when ruling on
TCS’s post-trial motion for judgment as a matter of law,
Fed. R. Civ. P. 50(a); and second, when ruling on TCS’s
renewed motion for judgment as a matter of law, id.
50(b), and motion for a new trial, id. 59.
We review a district court’s denial of a motion for
judgment as a matter of law de novo. Empress Casino
Joliet Corp. v. Balmoral Racing Club, Inc., 831 F.3d 815,
822 (7th Cir. 2016); see also Abellan v. Lavelo Prop.
Mgmt., LLC, 948 F.3d 820, 827 (7th Cir. 2020) (applying
Rule 50 and reviewing the district court’s decision de
novo when state substantive law applied). “Thus, like
the district court, we decide whether the jury had ‘a
legally sufficient evidentiary basis’ for its verdict.” May
v. Chrysler Grp., LLC, 716 F.3d 963, 971 (7th Cir. 2013)
(per curiam) (quoting Fed. R. Civ. P. 50(a)(1)). In doing
so, we construe all evidence in the record—and
inferences that can be reasonably drawn from that
evidence—in favor of the party that prevailed at trial on
the issue; that party here is Epic. May, 716 F.3d at 971.
This is a high burden for the moving party to satisfy: we
reverse the verdict “only if no rational jury could have
found in [Epic’s] favor.” Andy Mohr Truck Ctr., Inc. v.
Volvo Trucks N. Am., 869 F.3d 598, 602 (7th Cir. 2017).
Additionally, we review a district court’s denial of a
motion for a new trial under Rule 59 for an abuse of
discretion. Abellan, 948 F.3d at 830.

15a
TCS argues it is entitled to judgment as a matter of
law on this compensatory-damages award because there
is no logical connection between the basis for liability
and the jury’s damages verdict. Specifically, TCS
argues that a reasonable jury could not find that TCS
received a $140 million benefit by incorporating Epic’s
confidential information and trade secrets into what
TCS characterizes as a “stale marketing document.”
Unjust enrichment damages are available as a
remedy for a defendant’s misappropriation of trade
secrets, Wis. Stat. § 134.90, and are also available as a
remedy for Wisconsin tort claims, see Pro-Pac, Inc. v.
WOW Logistics Co., 721 F.3d 781, 786 (7th Cir. 2013). An
action for recovery seeking unjust enrichment damages
is “grounded on the moral principle that one who has
received a benefit has a duty to make restitution where
retaining such a benefit would be unjust.” Watts v.
Watts, 405 N.W.2d 303, 313 (Wis. 1987).
Because the recovery of unjust enrichment damages
is grounded in equitable principles, Wisconsin law limits
the measure of unjust enrichment damages to the value
of the “benefit conferred upon the defendant.” Mgmt.
Comput. Servs., Inc. v. Hawkins, Ash, Baptie & Co., 557
N.W.2d 67, 79–80 (Wis. 1996); cf. Halverson v. River
Falls Youth Hockey Ass’n, 593 N.W.2d 895, 900 (Wis. Ct.
App. 1999) (“Making improvements alone does not prove
the [defendant] received any benefit from them.”).
Unjust enrichment damages must be proven with
reasonable certainty, Mgmt. Comput. Servs., 557
N.W.2d at 80, and any costs the plaintiff may have
incurred are “generally irrelevant,” Lindquist Ford, Inc.

16a
v. Middleton Motors, Inc., 557 F.3d 469, 477 (7th Cir.
2009).
But the reasonable value of the benefit conferred on
a defendant can be measured in a variety of ways. In
ordinary unjust enrichment cases involving money or
services, the amount of recovery “is the amount of
money advanced or the reasonable value of the services
rendered.” Shulse v. City of Mayville, 271 N.W. 643, 647
(Wis. 1937). In other cases, a benefit is conferred under
circumstances in which the “benefactor reasonably
believes that he will be paid,” so the benefactor may be
entitled to receive damages equaling “the market value
of the benefit.” Cosgrove v. Bartolotta, 150 F.3d 729, 734
(7th Cir. 1998). And the Restatement of Restitution and
Unjust Enrichment—which Wisconsin courts treat as
persuasive authority, see, e.g., Buckett v. Jante, 767
N.W.2d 376, 382–83 (Wis. Ct. App. 2009)—provides
many examples of how to calculate the benefit conferred
on a defendant depending on the context in which that
benefit is received. See, e.g., Restatement (Third) of
Restitution and Unjust Enrichment § 41 (2011)
(providing guidance on how to calculate the benefit
conferred on the defendant in cases involving the
misappropriation of financial assets).
Simply put, there is no single way to measure the
benefit conferred on a defendant; the measurement is
context dependent. The important considerations are
that a judge or jury calculates the benefit to the
defendant—not the loss to the plaintiff—and that this
calculation is done with reasonable certainty. See, e.g.,
Mgmt. Comput. Servs., 557 N.W.2d at 80 (holding that
evidence of lost profits is insufficient for a “fair and

17a
reasonable approximation of unjust enrichment
damages” because “unjust enrichment is not measured
by the plaintiff’s loss”); W.H. Fuller Co. v. Seater, 595
N.W.2d 96, 100 (Wis. Ct. App. 1999) (remanding with
instructions for the trial court to first determine which
of the plaintiff’s services the defendant actually
benefited from and then determine the value of that
benefit).
Following this general approach, we have noted at
least one way a plaintiff may prove the amount of benefit
conferred on the defendant when the case involved
misappropriation of trade secrets. In 3M v. Pribyl, we
upheld the jury’s liability finding concerning the
defendant’s misappropriation of 3M’s trade secret
(operating procedures and manuals). 259 F.3d 587, 595–
97 (7th Cir. 2001) (applying Wisconsin trade secret law).
We found in the record sufficient evidence that the
defendants used the misappropriated operating
procedures and manuals to gain “a significant head start
in their operation.” Id. at 596. While this trade secret
was not used directly to develop a new product and was
not tied to any of the defendant’s specific profits, we
affirmed the jury’s liability verdict, and also noted that
damages were awarded based on “what it would have
cost the defendants to independently develop the trade
secrets at issue.” Id. at 607.
So, avoided research and development costs have
been awarded when the defendants gained a significant
head start in their operations.
TCS believes that avoided research and development
costs are not a reasonable proxy for the benefit it

18a
received from the comparative analysis. TCS assumes
that Epic could prove only that the comparative analysis
was used as a “stale marketing document.” Additionally,
TCS argues that Britven— Epic’s damages expert—
made a fundamental error under Wisconsin law: he
based his unjust enrichment damages on Epic’s cost
rather than TCS’s benefit. So, TCS reasons, the
damages awarded based on this calculation must fail as
a matter of law.
We disagree. Calculating the benefit conferred on a
defendant to determine unjust enrichment damages is a
context-specific analysis. Under Wisconsin law, the jury
could award avoided research and development costs
based on TCS gaining a “significant head start in [its]
operation.” Id. at 596. And, viewing the evidence in the
light most favorable to Epic, the jury would have a
sufficient basis to award Epic $140 million in
compensatory damages based on the “head start” TCS
gained in development and competition. That “head
start,” the jury could conclude, came from TCS’s use of
the comparative analysis and thus the stolen information
incorporated into that analysis. Furthermore, the jury
could base its award on the benefit TCS received from
avoided research and development costs, not the cost
Epic incurred when creating the same information.
Let’s turn from the legal theory that supports the
jury verdict to the evidence that supports the damages
award. First, Epic presented evidence that TCS stole
confidential information and trade secrets from Epic’s
UserWeb. Gajaram, a TCS employee, testified that he
improperly obtained credentials that allowed him to
view UserWeb in its entirety. Gajaram also testified

19a
that he shared his credentials with other TCS
employees. Stirling Martin, Epic’s senior vice president,
testified that he determined TCS employees
downloaded at least 1,600 unique files from UserWeb in
two years. Martin confirmed that these files contained
confidential information, including trade secrets.
The jury also saw slides from a TCS PowerPoint
presentation showing that TCS strategized as to how it
could start selling electronic-health-record software in
the United States. TCS noted in this PowerPoint,
however, that there were “key gaps” in Med Mantra that
TCS would need to address before selling it to United
States companies. In a deposition played for the jury, a
TCS employee confirmed that TCS wanted to
“implement” Med Mantra at Kaiser, one of Epic’s
biggest customers, and that he was asked to create the
comparative analysis to help achieve this goal. This
employee also testified that he refused to create the
comparative analysis because he did not want to get in
trouble for disclosing Epic’s confidential information.
Still, the jury saw internal emails showing that TCS
found a willing participant and the comparative analysis
was created.
The jury also heard Guionnet testify that TCS
wanted to find a way to implement “Med Mantra, either
as a whole or in modules, in the U.S.” To that end,
Guionnet testified that TCS worked with DaVita to
develop a lab module. And the PowerPoint slides shown
to the jury show that TCS—as a part of its United States
entry strategy—would use DaVita “as a reference site
to promote Lab Management solution[s] to Hospitals
and Independent Laboratories.” This lab module was a

20a
success; an email shown to the jury indicated that TCS
planned on “marketing the [l]ab product as a starter
immediately to position [itself] in the Provider space.”
Additionally, Epic presented evidence that, based on
TCS’s discovery violations, would allow it to draw an
adverse inference against TCS. The jury heard evidence
that TCS failed to preserve proxy logs that would have
indicated who accessed UserWeb and when. It also
heard that TCS failed to preserve the contents of its
computer hard drives. So, the jury could conclude that
TCS destroyed evidence of additional downloaded
documents that “contained information helpful to Epic
and harmful to TCS.”
The jury could conclude, based on all the evidence
we’ve described, that TCS used Epic’s stolen
confidential information, including trade secrets, to
create the comparative analysis. Then, the jury could
infer from the evidence that the comparative analysis
was used for a variety of purposes. These purposes
include: attempting to sell Med Mantra to Kaiser, one of
Epic’s largest customers; attempting to enter the
United States market and compete directly with Epic;
and addressing any key gaps in Med Mantra, potentially
by improving the product. These findings are bolstered
by the adverse inference against TCS—an inference that
would allow the jury to conclude that more documents
harmful to TCS existed.
The jury could therefore find that TCS’s benefit,
based on TCS’s use of the comparative analysis, was a
“head start” in competition and development. Indeed,
the evidence allowed a jury to conclude that TCS used

21a
Epic’s confidential information to thoroughly evaluate
what it would take to compete in a new market. In other
words, a jury could conclude that TCS had a free shot—
using stolen information—to determine whether it
would be profitable to improve Med Mantra and
implement a variety of tactics to enter the United States
electronic-health-record market.
Based on these
intermediate findings, a jury could determine that a
reasonable valuation of this benefit is the cost TCS
avoided by not having to develop this information by
itself.
And the jury could value that benefit—avoided
research and development costs—at $140 million.
Martin testified that information taken from UserWeb
was incorporated into the comparative analysis. He
explained that the stolen information corresponded to
specific modules of Epic’s software; so, Martin broke
down for the jury which information, corresponding to
specific modules, had been embedded in the comparative
analysis. Martin then showed the jury an exhibit on
which he placed a checkmark by each module of Epic’s
software that he believed made its way into the
comparative analysis.
Britven then calculated TCS’s benefit from avoiding
the cost of researching and developing the stolen
modules that were incorporated into the comparative
analysis. He started by calculating Epic’s cost in
developing all of the information taken by TCS; he then
reduced that number to reflect only the cost Epic
incurred from developing modules incorporated into the
comparative analysis. A few more reductions were
made: one subtracting the costs of Epic’s coding that

22a
TCS did not receive, and one reflecting the decayed
value of technology over time. Britven concluded, based
on this calculation, that TCS received a $200 million
benefit even though “Epic incurred [$]306 million to
develop those same trade secrets and confidential
information.”
TCS’s expert, Bersin, testified about what he
believed to be missing from Britven’s calculation: a
labor-cost reduction. He explained that Med Mantra’s
development team is located in India, where labor costs
are 30–40% less than in the United States, where Epic
developed its software. So, he reasoned, TCS’s avoided
research and development costs should be 30–40% less
than the $200 million Britven calculated. And applying
a 30% reduction to Britven’s $200 million benefit value
leaves you with an estimated $140 million in avoided
research and development costs—the exact amount of
damages awarded by the jury.
In sum, the jury had a sufficient basis to reach the
$140 million “comparative analysis” compensatory
award. TCS’s argument to the contrary relies on the
assumption that the comparative analysis was used as
nothing more than a stale marketing document. But the
jury was presented with evidence that would allow it to
conclude the comparative analysis was not just a stale
marketing document; the comparative analysis—and
therefore Epic’s information—was used to help TCS
evaluate its United States entry strategy and
potentially even address key gaps in Med Mantra by
improving the product. The evidence also allowed the
jury to conclude that avoided research and development
costs were a reasonable valuation of the benefit TCS

23a
received from using the comparative analysis, which
contained stolen information. Likewise, using avoided
research and development costs as the valuation of
TCS’s benefit, the jury could have reached a $140 million
compensatory award. Importantly, it could do so
without equating Epic’s development costs ($306
million, by Britven’s estimate) to TCS’s benefit from
using Epic’s information in the comparative analysis.
So, we agree with the district court’s decisions to uphold
this damages verdict and deny TCS’s motion for a new
trial.
TCS’s next argument concerns the punitive-damages
award. But before we shift to punitive damages, we
address Epic’s cross-appeal of the district court’s
decision to vacate the jury’s $100 million compensatorydamages award for TCS’s “other uses” of Epic’s
confidential information.
B. “Other
Confidential
pensatory Award

Information”

Com-

The district court presented the jury with a specialverdict form that allowed it to award damages based on
(a) the benefit of TCS’s use of the comparative analysis
and (b) the benefit of TCS’s use of other confidential
information. The district court included “part b” of the
verdict because “there was some evidence that other
confidential information was disseminated ‘out beyond
the specific people who discussed the comparative
analysis.’”
The jury initially awarded $100 million for “the
benefit of TCS’s use of other confidential information” in

24a
addition to the $140 million awarded for the “benefit of
TCS’s use of [the] comparative analysis.” But, in
partially granting TCS’s Rule 50 motion for judgment as
a matter of law, the district court held that this $100
million award for benefits from “other information” was
too speculative and was “tied to no evidence of specific
use at all.”
We review a district court’s decision to grant
judgment as a matter of law de novo. Passananti v.
Cook County, 689 F.3d 655, 659 (7th Cir. 2012). “Our job
is to assure that the jury had a legally sufficient
evidentiary basis for its verdict.” Filipovich v. K & R
Express Sys., Inc., 391 F.3d 859, 863 (7th Cir. 2004). In
deciding a Rule 50 motion, we “construe[] the evidence
strictly in favor of the party who prevailed before the
jury” and we do not make credibility determinations or
reweigh the evidence. Passananti, 689 F.3d at 659.
Still, “a verdict supported by no evidence or a mere
scintilla of evidence will not stand.”
Martin v.
Milwaukee County, 904 F.3d 544, 550 (7th Cir. 2018).
The specific verdict at issue here is the jury’s award
of compensatory damages apart from those based on the
comparative analysis.
Under Wisconsin law,
compensatory damages must be “proved with
reasonable certainty.” Novo Indus. Corp. v. Nissen, 140
N.W.2d 280, 284 (Wis. 1966). This does not require the
plaintiff to prove damages with “mathematical precision;
rather, evidence of damages is sufficient if it enables the
jury to make a fair and reasonable approximation.”
Mgmt. Comput. Servs., 557 N.W.2d at 80.

25a
Epic—to prove it was entitled to unjust enrichment
damages for TCS’s use of other confidential
information—needed to show that TCS used confidential
information that was not incorporated into the
comparative analysis. Epic says the jury heard evidence
that would allow it to conclude that other confidential
information—that was not incorporated into the
comparative analysis—was used to improve Med
Mantra. Epic points to Guionnet’s testimony, testimony
that TCS assigned a Med Mantra team member to the
Kaiser account, testimony about TCS’s downloading of
information unrelated to its work for Kaiser, and the
adverse-inference jury instruction in support of this
theory. Epic also points to evidence it believes the jury
could have used to reasonably determine that TCS
received a $100 million benefit based on its use of this
alleged other confidential information. But we believe
the evidence isn’t enough to support the jury’s $100
million award.
Let’s start with Guionnet’s testimony. Guionnet—a
TCS manager responsible for the Kaiser account—
testified that he attended a meeting where Med Mantra
was presented to Kaiser executives. He left the meeting
“astounded”; Med Mantra had improved significantly
since the last time he had seen the software, and he “was
concerned that some of the information from Kaiser had
been used to improve Med Mantra.” Guionnet then met
with members of the Med Mantra team. A TCS
employee—introduced to Guionnet as the “interface
between Med Mantra” and the Kaiser team—showed
Guionnet a “comparison ... between Med Mantra and

26a
Epic.” Guionnet “basically ... knew” at that point that
TCS had improperly used Epic’s information.
In a portion of Guionnet’s deposition played for the
jury, Guionnet confirmed that he more than suspected
that Epic’s information was used to improve Med
Mantra: “it’s knowledge.” He stated that Epic’s
“workflow, data model, functionalities, [and] test
scripts” were used in Med Mantra’s development. But
when pressed about how he knew Epic’s information
was used to improve Med Mantra, Guionnet consistently
responded by saying “I don’t remember,” “I don’t
remember the details,” or by saying he would have to go
back and look at his emails.
Guionnet then confronted TCS’s president with
information about TCS’s misconduct. But rather than
initiating an investigation, TCS’s president transitioned
Guionnet away from the Kaiser account and told him
that if he did not transition “peacefully,” he would be
“put ... in a corner” and TCS would “make [his] life
miserable.”
This evidence is missing something: any proof that
TCS used any confidential information besides the
information incorporated into the comparative analysis.
Guionnet testified that he knew TCS used Epic’s
information to improve Med Mantra, but the evidence
indicated that his knowledge came from reviewing the
comparative analysis, only. And when pressed at his
deposition about how he knew that Med Mantra
improved, Guionnet provided nothing but a lack of
memory and some general statements that Med Mantra
had improved. Basically, Guionnet was unable to tie

27a
what he perceived to be Med Mantra’s significant
improvements to any “other information” besides the
comparative analysis.
Guionnet’s testimony about his meeting with the
Med Mantra team does not add any support for the
verdict. Guionnet testified that at this meeting, he
received a detailed run-down of Med Mantra’s
functionality. Additionally, a TCS employee showed him
a spreadsheet comparing Med Mantra to Epic’s
software. But this information is related to TCS’s use of
the comparative analysis; it has nothing to do with Epic’s
other confidential information. Guionnet’s testimony
thus supports an inference that TCS used Epic’s
confidential information, but only the information that
was incorporated into the comparative analysis.
Epic next points to evidence that TCS assigned
members of the Med Mantra team to the Kaiser account.
Guionnet testified that “DV” Prasad “was a member of
the Med Mantra team who was planted in [the Kaiser]
organization.” And in a deposition played for the jury,
Prasad stated that Reddy, a senior TCS executive,
asked him to prepare a presentation comparing Med
Mantra and Epic. Prasad then confirmed that he “never
did” prepare the presentation because he knew it was
“not right.” But even without Prasad’s compliance,
Reddy found a willing employee and created the
comparative analysis.
Guionnet testified that he later caught wind that
Prasad— a member of the Med Mantra team—was
planted in the Kaiser organization. Guionnet attempted
to get rid of Prasad immediately; the head of TCS’s

28a
healthcare unit denied this request, leaving this “plant”
on the Kaiser team.
This evidence, contrary to Epic’s argument, has
nothing to do with TCS’s uses of “other information.”
Reddy made his intentions clear: Prasad was to use
Epic’s confidential information to compare Med Mantra
to Epic’s software before attempting to sell Med Mantra
to Kaiser. This evidence shows only that Epic’s
confidential information made its way into the
comparative analysis, which was then used as part of an
overall market-entry strategy. Rather than proving
that “other information” was used, this evidence simply
provides additional support for the jury’s compensatorydamages award for TCS’s use of the comparative
analysis. So again, we see no evidence tying any of
Epic’s other stolen confidential information to any use
outside of the comparative analysis.
In another attempt to show TCS used other
confidential information to improve Med Mantra, Epic
points to evidence regarding TCS’s laboratory module.
First, Epic points to TCS’s PowerPoint, which
acknowledges that there were key gaps in Med Mantra
that needed to be addressed. And Martin testified that
TCS employees stole information regarding Epic’s
laboratory product, Beaker. Guionnet testified that TCS
had partnered with DaVita to create its own laboratory
module. This project, however, fell behind and was
described as “well below average” by an independent
third party. Still, an email from a TCS employee showed
that TCS was “very seriously thinking” about
“marketing the Lab product as a starter immediately to
position [TCS] in the Provider space.” TCS later

29a
licensed the DaVita laboratory module to another
United States company, Quest Diagnostics.
But this is where evidence concerning Beaker ends.
Epic asserts that the mere fact that TCS downloaded
information about Beaker shows that “TCS used [its]
confidential information and trade secret information to
improve the lab product it developed for DaVita.” Yet
Epic fails to provide any examples of how Epic’s modules
or information, including the Beaker module, could be
tied to uses or improvements involving the DaVita
project. So, Epic presented evidence only that TCS
downloaded information concerning Beaker; but it does
not present evidence that TCS actually used this
information. Without a link from this information to any
use, Epic’s evidence does not support a finding that TCS
used “other confidential information.”
Epic attempts to plug the evidentiary holes
described above by pointing to the adverse-inference
instruction. It’s true that—given the district court’s
instruction—the jury heard evidence supporting an
inference that TCS destroyed documents that were
harmful to TCS and helpful to Epic. But even with this
inference, there is still no concrete evidence showing
that TCS used Epic’s “other information.”
Epic is thus left asking a jury to award damages
based solely on speculation as to what might be
contained in the destroyed documents. And if this type
of broad adverse inference based on the destruction of
evidence—standing alone—were enough to support a
jury’s damages verdict, a jury could hypothetically
award a plaintiff any amount of damages based on any

30a
theory of liability. This would be antithetical to the
purpose of adverse-inference instructions: sanctioning
misconduct while leveling the evidentiary playing field.
See Silvestri v. General Motors Corp., 271 F.3d 583, 590
(4th Cir. 2001).
To be clear, evidence supporting an adverse
inference, combined with other relevant circumstantial
evidence, may be a sufficient evidentiary basis for a
jury’s verdict. See Aspen Tech., Inc. v. M3 Tech., Inc.,
569 F. App’x 259, 266 (5th Cir. 2014) (finding the jury had
a legally sufficient basis for its verdict based on
circumstantial evidence and two adverse-inference
instructions); cf. Kronisch v. United States, 150 F.3d 112,
128 (2d Cir. 1998) (“[A]t the margin, where the innocent
party has produced some (not insubstantial) evidence in
support of his claim, the intentional destruction of
relevant evidence ... may push a claim that might not
otherwise survive summary judgment over the line.”).
But the destruction of evidence—by itself—is
insufficient to support a jury’s verdict as a matter of law.
Cf. Kronisch, 150 F.3d at 128 (“We do not suggest that
the destruction of evidence, standing alone, is enough to
allow a party who has produced no evidence—or utterly
inadequate evidence—in support of a given claim to
survive summary judgment on that claim.”). See
generally HK Sys., Inc. v. Eaton Corp., 553 F.3d 1086,
1088 (7th Cir. 2009) (noting that the standard is the same
for summary judgment and for judgment as a matter of
law).
So, if Epic were truly using the adverse inference to
plug evidentiary holes, this verdict might survive. But
the other evidence on which Epic relies provides

31a
“utterly inadequate” support for a finding that TCS used
confidential information apart from that incorporated
into the comparative analysis. Kronisch, 150 F.3d at 128.
As a result, Epic seeks to use the adverse inference not
just to plug evidentiary holes but to hold all the water
for a finding that TCS used other confidential
information. But Epic cannot rely on an adverse
inference to do so much.
In sum, Epic has not provided more than a mere
scintilla of evidence in support of its theory that TCS
used any of its other confidential information. This
portion of the jury’s damages award cannot stand. With
compensatory damages sorted out, we now turn to
punitive damages.
C. Punitive Damages
In addition to the $240 million awarded in
compensatory damages, the jury initially awarded Epic
$700 million in punitive damages. The district court cut
that award to $280 million based on a Wisconsin law
capping statutory damages at two times the amount of
3
compensatory damages, Wis. Stat. § 895.043(6). The
district court then denied TCS’s renewed motion for
judgment as a matter of law under Rule 50(b) and TCS’s
motion for a new trial under Rule 59; the court
accordingly left the $280 million punitive-damages
award intact, reasoning in part that its decision to vacate
the jury’s $100 million compensatory award for use of
3

Recall that the district court also reduced the compensatory award
by $100 million, leaving $140 million in compensatory damages and
$280 million in punitive damages.

32a
“other information” did not affect the jury’s punitive
damages verdict.
Whether the district court erred in denying TCS’s
Rule 50 motion is a question of law that we review de
novo. Valdivia v. Twp. High Sch. Dist. 214, 942 F.3d 395,
396 (7th Cir. 2019). In reviewing this decision, “[w]e
view the facts and evidence in the light most favorable
to [Epic], as the litigant who prevailed before the jury.”
Id. To the extent TCS asked the district court for a new
trial regarding punitive damages under Rule 59, we
review the district court’s decision to deny this motion
for an abuse of discretion. Abellan, 948 F.3d at 830. And
because the punitive damages stand on Wisconsin causes
of action, the punitive-damages award must be
consistent with Wisconsin law. See Kapelanski, 390
F.3d at 534.
TCS presents four arguments challenging the $280
million punitive-damages award: First, TCS argues that,
to receive punitive damages under Wisconsin law, the
plaintiff must prove an actual injury—which Epic did
not do. Second, TCS argues that the punitive-damages
award here must be set aside because it may have been
based on a claim that cannot support punitive damages
as a matter of law. Third, TCS argues that the punitivedamages award must be vacated and retried in light of
the district court’s decision to vacate the $100 million
compensatory-damages award. Finally, TCS argues the
punitive-damages award is constitutionally excessive.
We take each in turn.

33a
1. “Actual Injury” Requirement
TCS argues that the punitive-damages award fails as
a matter of law because Epic failed to prove an “actual
injury.” TCS contends that under Wisconsin law, an
actual injury and a damages award reflecting redress for
this injury are “threshold requirements before punitive
damages may be awarded.” TCS reasons that, because
Epic did not suffer an actual injury and instead was
awarded damages solely based on the benefit TCS
received, Epic cannot receive punitive damages.
But Wisconsin law is not as exacting as TCS argues.
Rather, Wisconsin law requires—for punitive damages
to be awarded—the imposition of compensatory
damages. TCS first cites to Tucker v. Marcus for the
proposition that a plaintiff must prove “some actual
injury which would justify an award of actual or
compensatory damages before punitive damages may be
awarded. “ 418 N.W.2d 818, 823 (Wis. 1988) (quoting
Hanson v. Valdivia, 187 N.W.2d 151, 155 (Wis. 1971)).
However, Tucker makes clear that the threshold
requirement for punitive damages is an “‘award’ of
actual or compensatory damages” rather than an injury
to the plaintiff. Tucker, 418 N.W.2d at 827. In fact, the
Wisconsin Supreme Court specifically held that—even
though the jury found “there had been injury
suffered”—”punitive damages were inappropriately
allowed in this case” because the plaintiff could not
recover “actual damages.” Id. at 823.
In a more recent decision, the Wisconsin Supreme
Court affirmed that compensatory damages are a
sufficient predicate for punitive damages. “[W]e have

34a
held that ‘where there exists a “cause of action,” but the
action is not one for which the recovery of compensatory
damages is justified, punitive damages cannot be
awarded.’” Groshek v. Trewin, 784 N.W.2d 163, 173
(Wis. 2010) (emphasis added) (quoting Tucker, 418
N.W.2d at 824). Groshek, like Tucker, holds that the
availability of punitive damages is governed by whether
compensatory damages are recoverable, and not by
whether an “actual injury” has been inflicted. See
Groshek, 784 N.W.2d at 173; cf. Tucker, 418 N.W.2d at
830 (Heffernan, C.J., dissenting) (“Today’s majority
holds that [actual damages] should be defined in a
manner that no punitive damages may be awarded in the
absence of a recovery for compensatory damages.”).
Since Groshek, we have further expounded on when
punitive damages are appropriate under Wisconsin law.
In Pro-Pac, Inc. v. WOW Logistics Co., we stated that
punitive damages are recoverable under Wisconsin law
regardless of whether damages are based on “gain to
[the defendant] (i.e., restitutionary damages) or loss to
[the plaintiff] (i.e., compensatory damages).” 721 F.3d
781, 788 (7th Cir. 2013). This is true because Wisconsin
law allows “awards of punitive damages when
‘compensatory damages’ are imposed,” and Wisconsin
defines compensatory damages to include compensation,
indemnity, and restitution. Id.
So, TCS is incorrect that Wisconsin law requires
Epic to prove an “actual injury” to obtain punitive
damages. Instead, punitive damages are available when
compensatory damages are imposed, as they were in this
case. Epic is therefore not barred from recovering
punitive damages simply because compensatory

35a
damages were awarded for TCS’s benefit rather than
any injury Epic sustained.
2. Claims that Support Punitive Damages
TCS next argues that the punitive-damages award
must be set aside because it might have been based on
one of Epic’s claims that does not support punitive
damages as a matter of law. Specifically, TCS points out
that Epic’s unjust enrichment claim does not support
punitive damages, and there is no way to know—based
on the generality of the jury’s punitive-damages
verdict—if that is the claim the jury used to support
punitive damages.
We can quickly dispose of this argument. The jury
was specifically instructed that it could only award
punitive damages “with respect to Epic’s trade secrets,
fraudulent misrepresentation[,] and unfair competition
claims.” “Jurors are presumed to follow a court’s
instructions.” Seifert ex rel. Scoptur v. Balink, 869
N.W.2d 493, 504 (Wis. Ct. App. 2015); see also
Schandelmeier-Bartels v. Chi. Park Dist., 634 F.3d 372,
388 (7th Cir. 2011) (“[W]e presume that juries follow the
instructions they are given.”). So we may presume that
the jury based its punitive-damages award on these
claims, and not on the unjust enrichment claim.
And Epic’s claims for trade secrets, fraudulent
misrepresentation, and unfair competition all allow
recovery of damages on a theory of gain to the
defendant. Wis. Stat. § 134.90(4) (damages for a
violation of Wisconsin’s trade secrets act include “unjust
enrichment caused by the violation”); Pro-Pac, 721 F.3d

36a
at 786 (restitutionary damages, i.e. damages based on
the defendant’s benefit, are recoverable “as
compensation for tort claims”). As discussed above,
punitive damages can be awarded when compensatory
damages—including damages based on a defendant’s
gain—are imposed. Pro-Pac, 721 F.3d at 788.
TCS does not dispute that Epic’s trade secrets,
fraudulent misrepresentation, and unfair competition
claims support an award of punitive damages; in fact, it
admits these claims “could support punitive damages.”
And because the jury was instructed to base punitive
damages on these claims only, the punitive-damages
award was not based on a claim that does not support
punitive damages as a matter of law.
3. Conduct on which Punitive Award is Based
TCS next argues that the punitive-damages award
must be vacated and retried in light of the district court’s
decision—which we affirm—to vacate the $100 million
damages award for TCS’s uses of other confidential
information. TCS argues that when the jury determined
punitive damages, it had in mind a broader range of
conduct “than was legally sustainable.” And because we
cannot know whether the jury’s punitive-damages
decision was based on “a permissible or impermissible
claim or theory,” we must vacate the punitive award and
remand for the issue to be retried.
But this argument fundamentally misunderstands
punitive damages. Punitive damages are imposed to
“punish[] unlawful conduct and deter[] its repetition.”
Trinity Evangelical Lutheran Church v. Tower Ins. Co.,

37a
661 N.W.2d 789, 798 (Wis. 2003) (emphasis added); see
also Kemezy v. Peters, 79 F.3d 33, 34 (7th Cir. 1996)
(“The standard judicial formulation of the purpose of
punitive damages is that it is to punish the defendant for
reprehensible conduct and to deter [the defendant] and
others from engaging in similar conduct.”). Stated
differently, punitive damages are based on the
defendant’s conduct underlying a plaintiff’s claims, not
on the claims themselves.
And the cases TCS cites in support of its argument
provide further support for this understanding of
punitive damages. Take Robertson Oil Co. v. Phillips
Petroleum Co., 871 F.2d 1368 (8th Cir. 1989), as an
example. The jury in that case found Phillips Petroleum
liable for fraud, breach of the duty of good faith and fair
dealing, tortious interference, and negligence. Id. at
1370. The jury also awarded Robertson Oil punitive
damages. Id. But on appeal, the Eighth Circuit affirmed
only the theory of tortious interference with a business
relationship. Id. at 1375. And Phillips’s conduct
“relevant to an award of punitive damages necessarily
differ[ed] according to the various theories of liability on
which the jury based its verdict.” Id. at 1376. So,
because the court could not “ascertain what conduct of
Phillips was determined by the jury to merit punitive
damages,” the Eighth Circuit ordered the district court
to retry punitive damages. Id.
The Eighth Circuit in Robertson Oil did not require
a retrial of punitive damages simply because it found
that some of the theories of liability failed as a matter of
law.
Instead, the emphasis was on the conduct
underlying these theories. Because the court could not

38a
be sure which of Phillips’s conduct led the jury to believe
punitive damages were necessary, and some of that
conduct did not warrant damages as a matter of law, a
new trial was necessary. This understanding of punitive
damages holds true throughout the cases TCS cites in
support of its argument. See, e.g., CGB Occupational
Therapy, Inc. v. RHA Health Servs. Inc., 357 F.3d 375,
390 (3d Cir. 2004) (reversing punitive damages because
it was unclear which act of tortious interference formed
the basis of punitive damages when the plaintiff
interfered with two distinct contracts); Marrero v. Goya
of P.R., Inc., 304 F.3d 7, 30 (1st Cir. 2002) (affirming a
harassment claim, reversing a retaliation claim because
there was no evidence of an adverse personnel action,
and requiring a new trial on punitive damages because
the court could not be sure if punitive damages were
based on the erroneous retaliation finding).
So, a punitive-damages award requires a new trial
only when (1) the claims of liability supporting punitive
damages are based on different underlying conduct by
the defendant, and (2) one of those claims (and therefore
the conduct underlying that claim) is found to be
unsupported as a matter of law. TCS argues that
different conduct underlies the two separate
compensatory-damages awards, and we cannot know
which conduct led the jury to award punitive damages.
But the conduct underlying both compensatorydamages awards was the same. One compensatorydamages award was based on the “benefit of TCS’s use
of [the] comparative analysis” and the other was based
on the “benefit of TCS’s use of other confidential
information.” The key distinction between these two

39a
compensatory awards is information, not conduct. By
awarding damages for TCS’s uses of “other confidential
information,” the jury did not have to find any uses—or
any conduct—that differed from the uses and conduct
underlying the comparative-analysis portion of the
compensatory award. Based on reasonable inferences
drawn in Epic’s favor, a jury could conclude that TCS
used the comparative analysis (and therefore Epic’s
information incorporated into that analysis) to improve
its marketing strategy, to try to enter the United States
market, and to generally improve Med Mantra before
attempting to sell it to Kaiser. And these are the only
uses that can be found in the record; TCS does not point
us to a single use of Epic’s information that is not also a
use that the jury could reasonably infer stemmed from
the comparative analysis.
So, the overall conduct underlying these two verdicts
is the same. TCS stole thousands of Epic’s documents,
lied about it, covered it up, and used Epic’s information
in a variety of ways. This course of conduct is the same
regardless of whether the jury incorrectly found that
this course of conduct included the use of a few more
pieces of Epic’s information. Whether the jury found
that TCS received an additional benefit based on other
confidential information does not affect the jury’s
assessment of TCS’s overall conduct.
So, our
determination that TCS did not use “other confidential
information” does not disturb the jury’s punitivedamages award.

40a
4. Constitutionality of the Punitive-Damages
Award
TCS finally argues that the punitive-damages award
of $280 million violates its due process rights under the
federal constitution and Wisconsin law. We review
these questions de novo. Rainey v. Taylor, 941 F.3d 243,
254 (7th Cir. 2019); Trinity Evangelical Lutheran
Church, 661 N.W.2d at 799.
As we reminded the litigants in Saccameno, “the
Constitution is not the most relevant limit to a federal
court when assessing punitive damages, as it comes into
play ‘only after the assessment has been tested against
statutory and common-law principles.’” Saccameno v.
U.S. Bank Nat’l Ass’n, 943 F.3d 1071, 1086 (7th Cir.
2019) (quoting Perez v. Z Frank Oldsmobile, Inc., 223
F.3d 617, 625 (7th Cir. 2000)). “The Constitution is the
only federal restraint on a state court’s award of punitive
damages,” but federal judges are not restricted to
reducing punitive damages in a federal case. Id. (citing
Perez, 223 F.3d at 625). Indeed, “[a] federal court ... can
(and should) reduce a punitive damages award sometime
before it reaches the outermost limits of due process.”
Id. (citing Perez, 223 F.3d at 625; Payne v. Jones, 711
F.3d 85, 97–100 (2d Cir. 2013)).
The Due Process Clause of the Fourteenth
Amendment imposes constitutional limitations on
punitive damages. State Farm Mut. Auto. Ins. Co. v.
Campbell, 538 U.S. 408, 416–17 (2003). Punitive
damages may be imposed to further a state’s legitimate
interests in imposing punishment for and deterring
illegal conduct, but punitive damages violate due process

41a
when the award is “‘grossly excessive’ in relation to
these interests.” BMW of N. Am., Inc. v. Gore, 517 U.S.
559, 568 (1996). The Supreme Court, in testing awards
of punitive damages for compliance with due process,
has established three “guideposts”: “(1) the
reprehensibility of the defendant’s conduct; (2) the
disparity between the actual harm suffered and the
punitive award; and (3) the difference between the
award authorized by the jury and the penalties imposed
in comparable cases.” Rainey, 941 F.3d at 254 (citing
Gore, 517 U.S. at 575). Wisconsin courts apply a
“virtually identical test.” Trinity Evangelical Lutheran
4
Church, 661 N.W.2d at 800.
The
Supreme
Court’s
first
guidepost—
reprehensibility of the defendant’s conduct—is the most
important. Gore, 517 U.S. at 575. In determining the
reprehensibility of the defendant’s conduct, we consider
five factors: whether
the harm caused was physical as opposed to
economic; the tortious conduct evinced an
indifference to or a reckless disregard of the
health or safety of others; the target of the
conduct had financial vulnerability; the conduct
4

Wisconsin courts consider the factors most relevant to the case at
hand, with those factors coming from the following list: (1) the
grievousness of the acts, (2) the degree of malicious intent, (3)
whether the award bears a reasonable relationship to the award of
compensatory damages, (4) the potential damage that might have
been caused by the act, (5) the ration of the award to civil or criminal
penalties that could be imposed for comparable misconduct, and (6)
the wealth of the wrongdoer. Trinity Evangelical Lutheran
Church, 661 N.W.2d at 800.

42a
involved repeated actions or was an isolated
incident; and the harm was the result of
intentional malice, trickery, or deceit, or mere
accident.
Campbell, 538 U.S. at 419. If none of these factors weigh
in favor of the plaintiff, the award is “suspect.” Id. And
even if one factor weighs in the plaintiff’s favor, that may
not be enough to sustain the punitive award. Id. And
finally, since a plaintiff is presumed to be made whole by
the compensatory award, punitive damages should be
awarded only if the defendant’s conduct is “so
reprehensible as to warrant the imposition of further
sanctions to achieve punishment or deterrence.” Id.
The first factor asks us to consider if the harm was
physical as opposed to economic. Id. Conduct producing
physical harm is more reprehensible than conduct
producing economic harm. See Gore, 517 U.S. at 576.
Epic did not suffer physical harm as a result of TCS’s
conduct. So this factor weighs against finding TCS’s
conduct reprehensible.
Turning to the second factor, we do not believe that
TCS’s conduct evinced an indifference to or a reckless
disregard of the safety of others. Epic does not attempt
to persuade us otherwise. This factor also weighs
against finding TCS’s conduct reprehensible.
The third factor—the financial vulnerability of the
target of the defendant’s conduct—stands for the
proposition that conduct is more reprehensible if it
impacts financially vulnerable plaintiffs. See, e.g.,
Saccameno, 943 F.3d at 1087; EEOC v. AutoZone, Inc.,

43a
707 F.3d 824, 839 (7th Cir. 2013). Epic, one of the largest
producers of electronic-health-record software, is not
financially vulnerable. This factor again weighs against
finding TCS’s conduct reprehensible.
Applying the fourth factor, TCS’s conduct did
involve a repeated course of wrongful acts. Epic
presented evidence that TCS knew it lacked authority to
access confidential information from UserWeb. Yet
TCS employees still accessed and downloaded Epic’s
confidential information for years, downloading over
1,600 unique documents from UserWeb and gaining
access to information that Epic specifically forbid TCS
from accessing. This factor weighs in favor of finding
TCS’s conduct reprehensible and provides support for
some award of punitive damages.
As for the last factor—whether the harm was the
result of intentional malice, trickery or deceit, or mere
accident—TCS argues that Epic suffered no harm.
Specifically, TCS contends that because Epic was not
deprived of the enjoyment of its software, did not lose
business, and did not face any new competition, there
could not have been any harm to Epic. But even though
it is hard to quantify, Epic likely suffered a competitive
harm; TCS, a potential competitor, had access to Epic’s
confidential information for years without Epic’s
knowledge. This gave TCS insight into the strengths
and weaknesses of Epic’s software, regardless of
whether TCS was able to turn that knowledge into a
direct economic harm to Epic. Cf. United Tech. Corp. v.
U.S. Dept. of Def., 601 F.3d 557, 564 (D.C. Cir. 2010)
(discussing, for purposes of what constitutes
“confidential information” under an exemption to the

44a
Freedom of Information Act, what constitutes
substantial competitive harm). We can also think of at
least one economic harm, albeit minor, that Epic
suffered as a result of TCS’s conduct. Epic, after it
became aware of TCS’s unlawful access to UserWeb, had
to expend time and resources investigating the extent to
which TCS had accessed Epic’s confidential information
and trade secrets.
And these harms were the result of TCS’s repeated,
intentional attempts to deceive Epic. See Gore, 517 U.S.
at 576 (noting that deceit is more reprehensible than
negligence). Epic repeatedly denied Kaiser’s and TCS’s
requests to allow TCS access to UserWeb. But TCS
gained access to UserWeb through other means, using
Gajaram’s account, which he obtained by falsely
identifying as a Kaiser employee. The jury heard
testimony that Gajaram’s account information was
shared throughout TCS and was frequently used to
download and share Epic’s confidential information.
TCS employees also lied to prevent Kaiser and Epic
from discovering that TCS had access to Epic’s
UserWeb. A TCS employee testified that his manager
told him to hide the truth from investigators. This
employee obeyed these instructions and lied to
investigators, telling them that he had only accessed
UserWeb one time when he knew he had accessed it
more than once.
The harms to Epic resulted from TCS’s deceitful
conduct. This factor weighs in favor of finding TCS’s
conduct reprehensible and supports some award of
punitive damages.

45a
In sum, we agree with the district court that TCS’s
conduct warrants punishment. But TCS’s conduct was
not reprehensible “to an extreme degree.” Saccameno,
943 F.3d at 1088. TCS caused no physical harm to Epic.
TCS also did not recklessly disregard the safety of
others. And Epic is not a financially vulnerable plaintiff.
But TCS’s conduct consisted of a repeated course of
wrongful actions spanning multiple years.
TCS’s
conduct was also intentional and deceitful, not negligent.
We therefore conclude that TCS’s conduct justifies
punishment, though not in the amount of a $280 million
punitive-damages award.
Turning to the Supreme Court’s second guidepost,
we analyze the ratio of punitive damages to the “harm,
or potential harm” inflicted on the plaintiff. Campbell,
538 U.S. at 424. In most cases, the compensatorydamages award approximates the plaintiff’s harm. In
those cases, identifying the ratio is straightforward: we
compare compensatory and punitive-damages awards.
See, e.g., Rainey, 941 F.3d at 255. But in some cases, the
jury’s compensatory-damages award does not reflect the
plaintiff’s quantifiable harm. Still, we may account for
that harm in the harm-to-punitive-damages ratio. See
Sommerfield v. Knasiak, No. 18-2045, 2020 WL 4211297,
at *5 (7th Cir. July 23, 2020).
The circumstances of this case, however, present an
unusual issue in determining the amount of “harm”
under this guidepost. The jury awarded $140 million in
compensatory damages based on the benefit to TCS, not
because of any harm suffered by Epic. This award, then,
does not reflect Epic’s harm. And if Epic suffered
quantifiable economic harm, that harm is significantly

46a
smaller than $140 million, which would in turn
drastically change the relevant ratio. If we had to
quantify that harm to arrive at the appropriate ratio,
applying the second due-process guidepost would pose a
challenging task.
But TCS makes no argument here—and did not
argue to the district court—that we should compare any
number besides compensatory damages to the punitivedamages award. See Puffer v. Allstate Ins. Co., 675 F.3d
709, 718 (7th Cir. 2012) (underdeveloped arguments are
waived). In fact, most of its argument under this
guidepost emphasizes the size of the compensatory
award as a reason the punitive-damages award violates
due process. TCS has thus waived any argument that
the compensatory award is the incorrect denominator in
the ratio analysis. And at least one other court has
compared an unjust enrichment award to the punitivedamages award under this guidepost when state law
allowed punitive damages to be imposed for the
underlying claim. See Rhone-Poulenc Agro, S.A. v.
DeKalb Genetics Corp., 272 F.3d 1335, 1351 (Fed. Cir.
2001) (concluding it is appropriate to base punitive
damages on an unjust enrichment award when the
defendant’s gain “is logically related” to the plaintiff’s
“harm or potential harm”), vacated, 538 U.S. 974 (2003),
remanded to 345 F.3d 1366 (2003) (reaching the same
result as to punitive damages). So, we will conduct the
ratio analysis using the $140 million compensatory
award as the denominator.
In conducting this analysis, the Supreme Court has
declined to set a fixed ratio limiting punitive damages.
Campbell, 538 U.S. at 425 (“[T]here are no rigid

47a
benchmarks that a punitive damages award may not
surpass ... .”). The Supreme Court has, however, noted
that “few awards exceeding a single-digit ratio between
punitive and compensatory damages ... will satisfy due
process.” Id.
The punitive award in this case—after the district
court lowered it to comply with Wisconsin’s statutory
cap on punitive damages—is two times the ultimate
compensatory award. Our court and Wisconsin courts
have upheld significantly higher ratios. See, e.g.,
Rainey, 941 F.3d at 255 (affirming a 6:1 ratio); Mathias
v. Accor Econ. Lodging, Inc., 347 F.3d 672, 676–78 (7th
Cir. 2003) (affirming a 37:1 ratio); Kimble v. Land
Concepts, Inc., 845 N.W.2d 395, 412 (Wis. 2014) (finding
a 3:1 ratio appropriate and constitutional); Trinity
Evangelical Lutheran Church, 661 N.W.2d at 803
(affirming a 7:1 ratio).
But the compensatory damages here are high. The
Supreme Court has noted that “[w]hen compensatory
damages are substantial, then a lesser ratio, perhaps
only equal to compensatory damages, can reach the
outermost limit of the due process guarantee.”
Campbell, 538 U.S. at 425. And the $140 million award
in this case far exceeds what other courts have
considered “substantial.” See Lompe v. Sunridge
Partners, LLC, 818 F.3d 1041, 1069 (10th Cir. 2016)
(“[I]n many cases, compensatory damages less than
$1,000,000 have also been considered substantial.”). In
fact, neither party points us to any comparable cases in

48a
which any court has upheld a 2:1-or-higher ratio
5
resulting in over $200 million in punitive damages.
Many courts have instead found awards
“substantial” and imposed a 1:1 ratio based on
significantly lower compensatory awards.
See
Saccameno, 943 F.3d at 1090 (gathering cases where
courts have imposed a 1:1 ratio when the compensatory
award is less than $1 million); cf. Estate of Moreland v.
Dieter, 395 F.3d 747, 756–57 (7th Cir. 2005) (affirming a
$15 million punitive-damages award that was “a fraction
of the underlying compensatory damages award” and
was based on “truly reprehensible” conduct). Still, the
precise award must be based on “the facts and
circumstances of the defendant’s conduct and the harm
to the plaintiff.” Campbell, 538 U.S. at 425; cf.
Sommerfield, 2020 WL 4211297, at *6 (noting that
sanctions should be based on the wrong done rather than
the defendant’s wealth).

5

Epic only cites to one case with a relatively comparable award,
Yung v. Grant Thornton, LLP, 563 S.W.3d 22, 73 (Ky. 2018)
(upholding $80 million in punitive damages, resulting in a 4:1 ratio).
It’s true that in Yung, like in this case, only the last two
reprehensibility factors weighed in favor of allowing punitive
damages. Id. at 67. But the economic harm suffered by the plaintiffs
in Yung distinguishes that case from the circumstances here. In
Yung, the plaintiffs suffered substantial, quantifiable economic
harm, including millions of dollars in taxes, interest, and fees owed
to the IRS. Id. at 57. Here, there is hardly evidence that Epic
suffered any economic harm; the compensatory award was based on
TCS’s benefit. And any potential future economic harm has not
been quantified.

49a
The facts and circumstances of this case do not justify
awarding $280 million in punitive damages. As noted
above, three of the five reprehensibility factors weigh
against the reprehensibility of TCS’s conduct. TCS’s
conduct was reprehensible, but not to an extreme
degree. See, e.g., Bridgeport Music, Inc. v. Justin
Combs Publ’g, 507 F.3d 470, 490 (6th Cir. 2007) (based
on “the low level of reprehensibility of defendants’
conduct, a ratio of closer to 1:1 or 2:1 is all that due
process can tolerate in this case”). But see, e.g., Rainey,
941 F.3d at 255 (“the truly egregious nature” of the
defendant’s acts of sexual objectification and assault
justified “the size of [the] punitive award even with [a]
significant compensatory award”); Mathias, 347 F.3d at
675–78 (affirming a 37:1 ratio in part because the motel
company refused to have bed bugs in hotel rooms
exterminated when it was aware of the risk to its
customers).
And although TCS’s actions did harm Epic, that
harm does not support the size of the punitive-damages
award. Cf. Rainey, 941 F.3d at 254–55 (affirming a
punitive-damages award six times larger than the $1.13
million compensatory award in part because the plaintiff
suffered “pain and humiliation” as a result of the
defendant’s groping and acts of sexual objectification);
In re Exxon Valdez, 472 F.3d 600, 623–25 (9th Cir. 2006),
amended 490 F.3d 1066, (reducing punitive damages to
$2.5 billion, reflecting a 5:1 ratio with compensatory
damages, where the plaintiff caused severe economic
harm and emotional harm to thousands of people by
spilling 11 million gallons of crude oil into United States
waters).

50a
We therefore conclude that a 2:1 ratio exceeds the
outer-most limit of the due process guarantee in this
case because TCS’s conduct, while reprehensible, was
not egregious, and multiplying the substantial
compensatory award—calculated on the basis of TCS’s
benefit rather than Epic’s loss—is unnecessary to reflect
Epic’s uncertain economic harm. See Campbell, 538 U.S.
at 425; Saccameno, 943 F.3d at 1090. Instead, the ratio
relative to the $140 million compensatory award should
not exceed 1:1 in this case. See Saccameno, 943 F.3d at
1090 (concluding that the ratio “should not exceed 1:1”
where the compensatory award was “substantial”). It
should be noted, though, that “[w]hat counts as
substantial depends on the facts of the case, and an
award of this size (or larger) might not mandate a 1:1
ratio on another set of facts.” Id.
We now turn to the final guidepost: the difference
between the punitive award authorized by the jury and
civil penalties imposed in comparable cases. Although
“this guidepost generally deserves less weight than the
other two,” Rainey, 941 F.3d at 255, it serves an
important purpose: to “allow[] courts to show
‘substantial deference to legislative judgments
concerning appropriate sanctions for the conduct at
issue.’” AutoZone, 707 F.3d at 840 (7th Cir. 2013)
(quoting Gore, 517 U.S. at 583).
TCS has made no argument about this guidepost and
has thus waived any argument that it points toward the
award being unconstitutional. Although TCS has not
pointed us to a single relevant civil penalty for
comparison, we recognize that both the $280 million
award the district court entered, and a $140 million

51a
award that would reflect a 1:1 ratio, comply with
Wisconsin’s statutory cap on punitive damages. That
cap is one indication of what the Wisconsin legislature
has judged to be an inappropriate sanction for
reprehensible conduct: any punitive award exceeding a
2:1 ratio is inappropriate. Wis. Stat. § 895.043(6); see
AutoZone, 707 F.3d at 840 (“We recognize that this
statutory cap suggests that an award of damages at the
6
capped maximum is not outlandish.”). So, the final
guidepost does not point toward a $280 million or $140
million punitive-damages award being unconstitutional.
In sum, considering the factors together, we conclude
that the maximum permissible award of punitive
damages in this case is $140 million—a 1:1 ratio relative
to the compensatory award. And TCS only mentions
Wisconsin law to point out that Wisconsin courts apply a
test substantively identical to the federal test analyzed
above.
So, TCS has waived any argument that
Wisconsin law might produce a different result. We
therefore remand for the district court to amend its
judgment and reduce punitive damages to, at most, $140
million.

6

TCS does not challenge the constitutionality of the Wisconsin
statute that sets this cap, and we do not question it either. The
protections afforded by the Constitution are not fixed to a particular
ratio. See Campbell, 538 U.S. at 425. As such, the due-process
guarantee may be more protective than a statutory cap in one case
but less protective in another. Today, we hold only that, although
the Wisconsin statute permits a 2:1 ratio, the constitutional
protection under these circumstances goes further.

52a
III. CONCLUSION
The jury heard plenty of evidence that TCS stole
Epic’s confidential information and incorporated it into a
comparative-analysis spreadsheet. And, drawing all
inferences in favor of Epic, the jury could conclude that
TCS used the comparative analysis for a variety of
purposes, including the improvement of Med Mantra.
However, the jury did not hear any evidence that would
allow it to infer that any of Epic’s other information was
used by TCS.
Pursuant to the reasoning set forth above, the
judgment of the district court upholding the jury’s $140
million compensatory-damages award connected to the
comparative analysis is AFFIRMED; and, the judgment
of the district court vacating the jury’s $100 million
compensatory damages award for TCS’s use of other
information is also AFFIRMED.
Further, the judgment of the district court awarding
$280 million in punitive damage is VACATED as it
exceeds the outermost limit of the Due Process
guarantee in the Constitution; and, the issue of the
amount of punitive damages is REMANDED with
instruction to the district court to reduce the punitivedamages award consistent with the analysis in this
opinion.

53a
Appendix B

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
November 19, 2020
Before
JOEL M. FLAUM, Circuit Judge
DANIEL A. MANION, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
Nos. 19-1528 & 19-1613
EPIC SYSTEMS CORP.,
Defendants/
Counterclaim PlaintiffsAppellants/CrossAppellees.*
v.
TATA CONSULTANCY
SERVICES LTD. & TATA
AMERICA

*

Appeals from the United
States District Court for
the Western District of
Wisconsin.

No. 14-cv-748
William M. Conley,
Judge.

Plaintiff/Counterclaim Defendant-Appellee/Cross-Appellant.

54a
INTERNATIONAL CORP.
D/B/A TCS AMERICA,
Defendants/
Counterclaim PlaintiffsAppellants/CrossAppellees.
ORDER
Epic Systems Corporation filed a petition for
rehearing and rehearing en banc on September 3, 2020,
and on October 2, 2020, Tata Consultancy Services
Limited and Tata America International Corporation
filed an answer to the petition. No judge in regular
active service has requested a vote on the petition for
rehearing en banc, and all members of the original
panel have voted to deny panel rehearing. The petition
for rehearing is therefore DENIED.

55a
Appendix C

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
November 30, 2020
Before
JOEL M. FLAUM, Circuit Judge
DANIEL A. MANION, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
Nos. 19-1528 & 19-1613
EPIC SYSTEMS CORP.,
Plaintiff/Counterclaim
Defendant-Appellee/
Cross-Appellant,
v.
TATA CONSULTANCY
SERVICES LTD. & TATA
AMERICA INTERNATIONAL
CORP. D/B/A TCS AMERICA,
Defendants/
Counterclaim PlaintiffsAppellants/CrossAppellees.

Appeals from the United
States District Court for
the Western District of
Wisconsin.
No. 14-cv-748
William M. Conley,
Judge.

56a
ORDER
Tata America International Corporation and
Tata Consultancy Services Limited filed a petition for
rehearing and rehearing en banc on September 3, 2020.
No judge in regular active service has requested a vote
on the petition for rehearing en banc, and all members
of the original panel have voted to deny panel
rehearing. The petition for rehearing and rehearing en
banc is therefore DENIED.

57a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
EPIC SYSTEMS
CORPORATION,
Plaintiff,
v.
TATA CONSULTANCY
SERVICES LIMITED and TATA
AMERICA INTERNATIONAL
CORPORATION d/b/a TCA
America,

OPINION
AND ORDER
14-CV-748-wmc

Defendants.

From the outset of this lawsuit, Epic Systems
Corporation, a leading provider of medical records
software to the U.S. healthcare industry, has asserted a
variety of federal and state law claims arising out of
defendants repeatedly accessing Epic’s web portal
without authorization while servicing a mutual client.
Epic claims that Tata Consultancy Services Limited and
Tata America International Corporation (collectively
“TCS”), a much larger, India-based company and its
smaller U.S. arm, respectively, used the confidential,
propriety information obtained through that portal to
help develop their own, competitive software product

58a
1
and for other improper purposes. After this court
granted partial summary judgment on liability as to
certain of Epic’s claims and on elements of other claims,
the remainder proceeded to a jury trial. (3/2/16 Op. &
Order (dkt. #538).) Following a 10-day trial, the jury
returned a liability verdict in favor of plaintiff on all
remaining claims (dkt. #855), and awarded
compensatory damages of $240,000,000 and punitive
damages of $700,000,000. (Dkt. #871.) The court also
entered injunctive relief, permitting ongoing monitoring
of TCS to assure no further use of Epic’s stolen
information. (Dkt. #888; Am. Injunction (dkt. #959).)
There remain several, post-trial motions still
pending before the court, the most significant being: (1)
defendants’ motions for judgment as a matter of law
under Federal Rule of Civil Procedure 50(a) as to the
jury’s liability and damages verdicts (dkt. ##830, 843,
913); (2) plaintiff’s motion for attorneys’ fees and costs
(dkt. #916); and (3) defendants’ motion for clarification of
the court’s injunction order (dkt. #962). For the reasons
that follow, the court will deny defendants’ Rule 50(a)
motion as to liability, and will deny in part and grant in
part defendants’ motion as to damages, reducing the
jury’s compensatory damage award to $140 million and
the punitive damages award to the statutory cap of $280
million, but otherwise leaving the jury verdict intact.
The court will further deny plaintiff’s motion for
attorneys’ fees and costs, finding that the adverse
inference instruction to the jury when coupled with the
1

A detailed explanation of the underlying facts can be found in the
court’s summary of facts in its summary judgment decision (dkt.
#538), which were largely confirmed at trial.

59a
jury’s sizeable punitive damages award is a sufficient
sanction for TCS’s discovery abuses. Finally, with
respect to defendants’ motion for clarification, the court
will grant that motion and respond to the defendants’
specific questions below.
OPINION
I.

Rule 50(a) Motions

Under Federal Rule of Civil Procedure 50(a), a court
may “enter judgment against a party who has been fully
heard on an issue during a jury trial if ‘a reasonable jury
would not have a legally sufficient evidentiary basis to
find for the party on that issue.’” Schandelmeier-Bartels
v. Chi. Park Dist., 634 F.3d 372, 376 (7th Cir. 2011)
(quoting Fed. R. Civ. P. 50(a)). In considering a Rule 50
motion, however, the court is to “construe the facts
strictly in favor of the party that prevailed at trial,”
including drawing “[a]ll reasonable inferences in that
party’s favor and disregarding all evidence favorable to
the moving party that the jury is not required to
believe.” May v. Chrysler Group, LLC, 692 F.3d 734, 742
(7th Cir. 2012) (internal citations and quotation marks
omitted). In particular, the court is not to make
credibility determinations or weigh the evidence; it need
only determine whether “more than ‘a mere scintilla of
evidence’ supports the verdict.” Id. (quoting Hossack v.
Floor Covering Assoc. of Joliet, Inc., 492 F.3d 853, 859
(7th Cir. 2007)). Said another way, the court’s “job is to
decide whether a highly charitable assessment of the
evidence supports the jury’s verdict or if, instead, the
jury was irrational to reach its conclusion.” May, 692

60a
F.3d at 742. Set against this high bar, defendants’
motion largely falls short.
A. Liability
i.

2

Misappropriation of Trade Secrets Claim

Defendants contend that plaintiff failed to prove by
a preponderance of the evidence “(1) that TCS ‘used’ the
Alleged Trade Secrets and (2) that the Alleged Trade
Secrets” satisfy the definition in the Wisconsin Uniform
Trade Secrets Act.
(Defs.’ Mot. (dkt. #843) 2.)
Defendants’ first contention is the least persuasive since
plaintiff had no obligation to demonstrate use or
disclosure if the trade secrets were acquired using
“improper means.” (See Closing Instructions at 8-9; see
also 3/2/16 Op. & Order (dkt. #538) 57-58.) On the
question of “improper means,” plaintiff put forth ample
evidence for a reasonable jury to find that TCS acquired
trade secrets through misrepresentation, as well as
through multiple breaches of its duty to maintain the
secrecy of confidential information provided for the sole
purpose of servicing a mutual client. Moreover, even if
plaintiff were required to show actual misuse to prove
its claim, the court again finds more than sufficient
evidence from which a reasonable jury could find
improper use for reasons explained in the court’s opinion
and order on summary judgment and in multiple orders
2

Defendants actually filed two, essentially duplicative motions for
judgment as a matter of law on liability. (Dkt. ##830, 843.) The latter
one contains additional citations to the trial record. The court has
reviewed both, but relies on the second for purposes of addressing
defendants’ arguments.

61a
on TCS’s motions in limine. (See 3/2/16 Op. & Order
(dkt. #538) 40-42, 58-59; 3/23/16 Op. & Order (dkt. #703)
20.) Indeed, in light of the jury’s entitlement to reach an
adverse inference, as it was free to do after TCS’s
repeated, egregious failures to maintain and allow
timely access to relevant discovery materials (3/23/16
Op. & Order (dkt. #709)), the court is hard-pressed to
understand defendants’ argument to the contrary.
Finally, and again contrary to defendants’ suggestions,
TCS’s evidence that some of the wrongfully obtained,
confidential documents were used for a “legitimate
purpose” does not preclude a reasonable jury from
finding that the documents were also used for an
impermissible purpose.
(Defs.’ Br. (dkt. #843) 4
(describing TCS’s expert’s testimony about legitimate
use of documents in servicing a mutual client).)
Defendants’ second basis for seeking a directed
verdict on plaintiff’s claim for misappropriation of trade
secrets is premised on its claimed failure to take
reasonable steps to maintain those secrets. (Defs.’ Br.
(dkt. #843) 7-10.)
While the court agrees with
defendants that they have put forth sufficient evidence
from which a reasonable jury could have found that Epic
failed to undertake reasonable efforts to maintain the
secrecy of 30-some documents at issue, the evidence was
certainly not so legally insufficient as to remove the
issue from the jury’s consideration. On the contrary, a
reasonable jury could well have credited testimony by
Epic employees about its efforts to protect the
confidentiality of information related to software, both
as to specific steps and general commitment to
maintaining secrecy. (Trial Tr. (dkt. #889) 101-16

62a
(Stirling Martin’s testimony about efforts to maintain
confidentiality); see also Trial Tr. (dkt. #900) 86-88 (Carl
Dvorak testifying Epic is at the “top” of the industry in
terms of protecting its confidential information).)
ii. Unfair Competition and Unjust
Enrichment Claims
TCS also moves for directed verdict on Epic’s unfair
competition and unjust enrichment claims on much the
same basis, arguing that Epic failed to demonstrate “use
of something belonging to Epic . . . to benefit TCS at
Epic’s expense.” (Defs.’ Opening Br. (dkt. #832) 10.) The
court rejects this motion for the same reasons as well:
there is more than sufficient evidence to support the
jury’s finding that Epic met its burden to prove liability
on these claims, especially when considered in light of an
adverse inference.
iii. Injury to Business
Defendants next seek judgment as a matter of law
on plaintiff’s claim of injury to business in violation of
Wis. Stat. § 134.01. As the jury instructions explained,
this claim requires plaintiff to demonstrate that the two
defendants “acted together to injure maliciously another
person’s reputation, trade, business, or profession.”
(Closing Instructions at 11.) However, after defendants
submitted its Rule 50(a) motion, plaintiff withdrew this
claim, thus mooting this isse.

63a
iv. Deprivation of Property
TCS further moves for judgment on Epic’s claims
for deprivation of property/ civil theft claim in violation
of Wis. Stat. §§ 895.446 & 943.20, arguing that the
property at issue in this case does not constitute
“moveable property” under § 943.20.
The court
previously considered this argument, rejected it and
sees no basis to revisit that ruling. (See 4/1/16 Op. &
Order (dkt. #776) 7-9.)
v. Fraudulent Misrepresentation
TCS also seeks a directed verdict on plaintiff’s
fraudulent misrepresentation claim, asserting that Epic
neither demonstrated that TCS intended to induce
Epic’s reliance, nor that Epic’s reliance was reasonable.
Again, as explained in the court’s summary judgment
order, Epic’s claim is premised on TCS employees
misrepresenting that they were “Ramesh Gajaram” and
then using his credentials to access Epic’s UserWeb
without authorization. (3/2/16 Op. & Order (dkt. #538)
54-56.) Epic put forth ample evidence for a reasonable
jury to find that TCS and its employees intended to
induce Epic to rely on that misrepresentation and that
Epic’s reliance was reasonable. In its brief, TCS
contends that Epic failed to put forth any evidence that
it intended to “induce Epic to do something that would
cause it economic harm.” (Defs.’ Opening Br. (dkt. #843)
17.) However, that is not the test. The test is whether
Epic relied on that misrepresentation and whether its
reliance was reasonable. TCS offers no basis for
challenging the jury’s determination as to either prong
of that test.

64a
vi. Breach of Contract and Breach of Duty of
Good Faith and Fair Dealing
TCS moves for a directed verdict on these claims on
the basis that the evidence foreclosed a finding of
improper use. The court rejects this argument for the
same reason as explained above with respect to TCS’s
motion on Epic’s misappropriation of trade secrets
claim.
vii. Trafficking of Passwords (CFAA Claim)
Finally, TCS moves for judgment on its trafficking
of passwords, arguing Epic failed to put forth evidence
from which a reasonable jury could conclude that TCS
“acted knowingly with intent to defraud.” (Defs.’ Mot.
(dkt. #83) 16 (quoting Closing Instructions at 7).)
Because the court continues to find sufficient evidence
to support a jury’s verdict that TCS employees were
specifically motivated to improperly use other’s
passwords for an improper purpose (i.e., that TCS
accessed UserWeb documents for a purpose other than
to enable TCS employees to do their jobs for their
mutual customer Kaiser), the court rejects this basis for
its motion as well.
B. Damages
In addition to filing a motion for judgment as a
matter of law with respect to liability, defendants move
as to the jury’s damages award, lobbing several
challenges to the award of both compensatory damages

65a
and punitive damages.
The court addresses each
category below.
3

i.

Compensatory Damages

First, TCS contends that the court should not have
allowed plaintiff to proceed on a damages claim based on
the alleged value of the comparative analysis to TCS,
because that theory was untimely and prejudiced TCS.
After the court found plaintiff’s expert’s estimate of the
value of its stolen confidential and trade secret
information was insufficiently tied to evidence of TCS’s
actual use of that information to proceed before the jury.
(4/14/16 Op. & Order (dkt. #860).) The court allowed
Epic to make a proffer on damages during the time the
jury deliberated on liability. Specifically, Epic narrowed
its damages theory to TCS’s use of confidential
information detailed in Exhibit 39 by doing a
comparative analysis of Epic’s products against
competing products being developed by TCS. (Trial Tr.
(dkt. #907) 4-5.)
As explained during that hearing, the court found
this revised methodology “ratchet[ed Epic’s damages]
back to something that more approximates what was
actually received and apparently used by your client
both in the comparative model but also what [became]
3

In addition to filing the Rule 50(a) motion, defendants filed a
motion with respect to expert testimony, seeking an order from the
court barring plaintiffs’ damages case from going to the jury. The
court effectively denied that motion in allowing plaintiff to present
its damages case to the jury. Regardless, the court reviewed the
motion during the course of trial and, for reasons explained in its
decision on the Rule 50(a) motion, will also deny that motion.

66a
ongoing discussions by marketing people within [TCS]
as a result.” (Id. at 9.) In addition, this alternative
measure more closely followed evidence of TCS’s actual
use of Epic’s propriety information to compete for sales
of software to companies for whom TCS was already
providing other services. On this basis, therefore, the
court permitted Epic to pursue damages based on TCS’s
use of trade secrets and other confidential information in
creating the comparative analysis, and the jury awarded
$140,000,000 for that benefit. (Damages Verdict (dkt.
#871).)
TCS’s assertion that this theory was untimely is
belied by TCS’s contemporaneous statements during the
hearing on the revised damages theory. (See Trial Tr.
(dkt. #907) 8-9 (“I really don’t feel like I’m hearing
anything new here.”); id. at 10 (“[T]here’s really nothing
new here apart from . . . it’s more targeted to [what] Mr.
Martin thinks he saw download[ed].”).) The court
agreed then, and it still does: the revised theory actually
narrowed Epic’s damages claim by anchoring it to proof
of actual use of confidential and trade secret information
as detailed in the comparative analysis. As such, it was
not a new theory, and any claim of prejudice based on
this narrowed damage claim being offered untimely is
without merit.
For its part, Epic sufficiently describes the
evidentiary basis for the $140 million award in its
opposition to the Rule 50(a) motion. (Pl.’s Opp’n (dkt.
#926) 72-75.)
Indeed, this award is fairly
straightforward to understand: (a) TCS plainly took and
used this information to understand and compare Epic’s
product to compete effectively with it; (b) the cost of

67a
developing this information was roughly $200 million,
but crediting lower costs for IT work in India would still
cost $130 to $140 million; (c) during this same time, TCS
was actively working to create software to compete with
Epic’s in the United States and other parts of the world;
and (d) a high-ranking official (Phillipe Guionnet)
assigned to this task within TCS was frozen out of the
effort after raising concerns that TCS’s rapid advances
in its software could only be explained by appropriating
Epic’s software advances.
Despite the court’s misgiving as to a similar anchor
for other claimed uses, the verdict form also allowed the
jury to award damages for TCS’s use of “other
confidential information,” for which the jury awarded
$100,000,000. (Damages Verdict (dkt. #871).) The court
included this subpart over TCS’s objection, because
there was some evidence that other confidential
information was disseminated “out beyond the specific
people who discussed the comparative analysis.” (Trial
Tr. (dkt. #907) 94.) As the court explained during the
trial, the purpose of separating out subpart (b) of the
compensatory damages award was to give the court
some flexibility if it determined that any additional claim
of damages were too speculative to uphold. (Trial Tr.
(dkt. #898) 87-88.)
Accordingly, the court anticipated TCS would
challenge this $100 million award under subpart (b)
based on a lack of evidence of use. Instead, TCS chose
to swing for the fences (or as Epic’s opposition aptly put
it, to employ “an ‘all-or-nothing’ gambit” (dkt. #926 at
16), by challenging evidence that TCS even used Epic’s
trade secrets or other confidential information to create

68a
the comparative analysis (see Defs.’ Br. (dkt. #914) 3336), information the jury found ultimately conferred a
$140 million benefit, and for reasons that are not entirely
clear, chose not to make a discrete challenge to the jury’s
additional $100 million award.
Even though TCS’s own Rule 50(a) submission
offers little reason to upset either portion of the jury’s
compensatory damage award, the court would be remiss
not to follow up on its own concerns. Epic obviously
understood this, since its opposition to TCS’s motion
offers a convoluted attempt to tie the jury’s $100 million
award largely premised on Guionnet’s testimony that he
saw astonishing improvements to a customer’s data
model on a young TCS worker’s computer screen after
accessing Epic’s trade secrets. (Pl.’s Opp’n (dkt. #926)
75-78.) Even crediting this testimony and other more
amorphous evidence of use of Epic’s confidential
information in marketing decisions, it already bolsters
the jury’s sizable award for the benefit received from
information at least shown to have been used by TCS. In
contrast, the additional $100 million award for benefits
obtained from “the rest of the information” that TCS
took and used to improve its competing software is tied
to no evidence of specific use at all.
That is why, in closing arguments at trial, Epic itself
argued the monetary benefit to TCS was $200 million
“conferred on TCS when it acquired Epic’s trade secrets
and confidential information and embedded them in that
comparative analysis.” (Trial Tr. (dkt. #898) 128.) At no
point in closing did Epic’s counsel assert that an entire
separate value of another $100 million was conferred by
virtue of TCS’s unspecified use of “other information.”

69a
Only in its creative argument in support of that award
does Epic offer a logic tree working backward from the
jury’s $140 million dollar award to justify a further
compensatory award abased on amorphous benefits for
the 65% portions of the comparative analysis its expert
did not value in arriving at an opinion of $200 million for
“the Data/Model Data Architecture” column. (Pl.’s
Opp’n (dkt. #926) 76-78.)
Even if this did explain the jury’s thinking, the same
problem would remain: it depended on an off-the-cuff,
relative assignment of value to Epic for the columns in
the comparative analysis, not to TCS. Combined with
evidence that TCS ultimately chose not to go forward
with the competing software product under
development, and is enjoined from using any of the
stolen information in new products, a further award of
$100 million strikes the court as both excessive and
without sufficient mooring in the facts of record.
Second, TCS argues that the court should not have
allowed plaintiff to proceed on a narrowed damages
theory for the same reasons that the court rejected
Epic’s initial damages theory -- it was not sufficiently
related to TCS’s use of Epic’s trade secrets and other
confidential information. As acknowledged during the
hearing on Epic’s revised damages theory, the court
shared that concern. Still, unlike the original, broader
damages claim, which was untethered from a showing of
use, the revised, narrower claim tied the value of Epic’s
conditional information, including trade secrets, to a
showing of TCS’s use of that information in the creation
of a comparative analysis (or at least the jury could

70a
reasonably find, especially in light of the adverse
inference instruction).
As detailed for the jury in closing and in its
opposition brief, Epic presented evidence from which a
reasonable jury could infer that its trade secrets and
confidential information were used to: (1) inform TCS’s
U.S. entry strategy, including developing a laboratory
module for its principal U.S. health care customer,
DaVita, and as importantly, discerning dead ends and
what not to do; (2) prepare a comparative analysis to
insure that TCS’s product would be attractive to
customers; and (3) improve its Med Mantra product.
4
(Pl.’s Opp’n (dkt. #926) 40-64.) Contrary to TCS’s
position, there is no basis for requiring Epic to show that
TCS was ultimately successful in its use of Epic’s
confidential information and trade secrets (i.e., that such
use was profitable). See, e.g., Restatement (Third) of
Restitution and Unjust Enrichment § 51 (2011)
(“Enrichment from benefits wrongfully obtained is not
4

Epic devotes much of the opposition brief to argue that it need not
have shown use in order to be injured and entitled to damages under
an unjust enrichment damages theory. (Pl.’s Opp’n (dkt. #926) 2629.) The court need not reach this argument given that Epic was not
prejudiced by any error in instructing the jury that it should “only
award damages for the development costs saved by
misappropriation of Epic’s trade secrets or confidential information
if the trade secrets or confidential information were in fact actually
used by TCS.” (Damages Jury Instructions (dkt. #873).) Indeed,
Epic’s proof to the jury at trial, and as argued in closing, fell into
these very same categories of use, resulting in savings made by
avoiding Epic’s missteps and improvement made by following the
path Epic has already blazed. Regardless, for the reasons explained
in its prior opinion and order, Epic was required to tie its damages
theory to use. (4/14/16 Op. & Order (dkt. #960) 11-13.)

71a
discounted to reflect some lesser value actually realized
in advancing the purposes of the defendant.”); Cosgrove
v. Bartolotta, 150 F.3d 729, 734 (7th Cir. 1998) (applying
Wisconsin law and holding that, where the defendant
obtains a benefit from the plaintiff that “is not rendered
gratuitously, as by an officious intermeddler, or
donatively, as by an altruist or friend or relative,” then
the plaintiff “is entitled to demand the restitution of the
market value of the benefit”). Moreover, in light of the
adverse inference, the jury could reasonably conclude
that Epic’s trade secrets and other confidential
information were used, providing a separate basis for
5
awarding damages.
Third, defendants argue that there was no evidence
to support the jury’s finding that Epic’s trade secrets
were used to create the comparative analysis. As an
initial matter, the court barred defendants from arguing
that the analysis was generated from publicly-available
information, having failed to disclose this evidence in its
intial Rule 26 disclosures and during any point in
discovery, despite specific requests to do so. (3/23/16 Op.
& Order (dkt. #703) 7-8 (granting in part plaintiff’s
motion in limine to exclude defendants from arguing
that “the comparative analysis was created from
publicly-available sources absent evidence to support
this assertion previously disclosed in response to
5

As the court noted during one of the hearings on damages at a
break in the trial, “there’s an awful lot of smoke and the jury is
entitled to look for some fire if they can infer it, particularly with
respect to . . . the comparison and the fact that there were
discussions within the company for that comparison.” (See Trial Tr.
(dkt. #898) 7).)

72a
plaintiff’s interrogatories”).) Moreover, the jury was
instructed on the definition of trade secrets and, as
described above, Martin’s testimony provided an
adequate basis for them to find use of trade secrets in
creating the analysis.
Finally, because plaintiff
advanced claims based on both misappropriation of trade
secrets and of other confidential information, the jury’s
award was not dependent on a finding that trade secrets
specifically were used in creating the comparative
analysis.
Fourth, TCS argues that the testimony of plaintiff’s
expert, Mr. Britven, was based on an incorrect
assumption that TCS used Epic’s trade secrets and
other confidential information. (Defs.’ Br. (dkt. #914)
37.) The court previously addressed this argument,
faulting TCS, at least in part, for its failure to preserve
certain evidence and produce other evidence timely,
which resulted in Britven being asked to assume use.
(4/14/16 Op. & Order (dkt. #860) 6.) Regardless, an
expert may premise his or her opinions on factual
assumptions, which the proponent of that opinion must
then prove through the testimony of other witnesses or
documentary evidence. Here, the jury was instructed
that they could only award damages if TCS actually used
Epic’s trade secrets and/or other confidential
information, and plaintiff put forth sufficient evidence to
permit a reasonable jury to make that finding as detailed
above, especially in light of the adverse inference
instruction.

73a
ii. Punitive Damages
Defendants also seek an order vacating or at least
reducing plaintiff’s punitive damages award. As an
initial matter, TCS argues that there is no evidence that
its conduct was “willful and malicious” to justify a
punitive damages award on the misappropriation of
trade secrets claim. (Defs.’ Br. (dkt. #914) 55 (citing Wis.
Stat. § 134.90(4)(b) (“If a violation of sub. (2) is willful and
malicious, the court may award punitive damages in an
amount not exceeding twice any award under par.
(a).”)).) This initial argument is meritless, if not
frivolous. Even putting aside the issue of whether
defendants forfeited the argument by failing to raise it
before the verdict question was submitted to the jury
(Pl.’s Opp’n (dkt. #926) 80), defendants never objected to
the jury instruction allowing for an award of punitive
damages based on a finding that “TCS acted maliciously
toward Epic or in an intentional disregard of its rights.”
(Damages Instr. (dkt. #872) 5; see also Pl.’s Opp’n (dkt.
#926) 81-82 (describing defendants’ failure to object).)
This failure to object at trial is hardly surprising since,
contrary to TCS’s characterization now, Epic’s request
for punitive damages was not limited to the
misappropriation of its trade secrets claim under §
134.90. Epic also sought punitive damages based on its
common law claims for fraudulent misrepresentation
and unfair competition. (Damages Instr. (dkt. #872) 5.)
As TCS itself acknowledged in post-trial briefing, the
“malicious or intentional disregard” standard is the
appropriate one for an award of punitive damages on
these common law claims. (Defs.’ Br. (dkt. #914) 56-57.)

74a
Accordingly, there was no timely objection and no
underlying error in giving that instruction.
As for TCS’s contention that there is no evidence
supporting the jury’s finding that it acted with an
intentional disregard of Epic’s rights, the jury was
instructed that to prove “an intentional disregard of the
rights,” plaintiff must prove by clear and convincing
evidence that the defendant acted “with the purpose to
disregard the plaintiff’s rights” or was “aware that the
acts [were] substantially certain to result in the
plaintiff’s rights being disregarded.” (Damages Instr.
(dkt. #872) 5.) As detailed in Epic’s opposition brief,
there was more than sufficient evidence from which a
reasonable jury could reach that conclusion on the trial
record. (Pl.’s Opp’n (dkt. #926) 83-87.) Specifically, Epic
presented evidence that a variety of TCS employees
intentionally shared restricted credentials with dozens
of unauthorized co-employees, and they then gained
widespread, unauthorized access to Epic’s UserWeb.
Moreover, the evidence also supported a finding that
many of those employees knew they were both acting in
violation of corporate security requirements and
without any even arguable, legitimate purpose of
supporting Epic’s software shared customers. Finally,
the evidence reflected that TCS employees downloaded
more than 6,000 Epic documents, in addition to viewing
and copying and pasting information from documents,
for reasons at times unrelated to customer support.
Even if this were not enough, the jury further heard
evidence that when Epic raised concerns about this
conduct, TCS executives and managers engaged in a
campaign to “ suppress the truth” from investigators.

75a
(Pl.’s Opp’n (dkt. #926) 84.) The evidence also supported
a finding that TCS failed to notify Epic of its
unauthorized access and that, in its internal
investigation, TCS took its employees’ denials at face
value without conducting an adequate investigation or
preserving evidence for Epic to verify its findings. All
of this forms a sufficient basis from which the jury could
reasonably conclude that TCS intentionally gained
access to, misused and then suppressed evidence of
misuse of Epic’s trade secrets and confidential
information. At minimum, the jury had ample basis to
find clear and convincing evidence that TCS was
sufficiently aware a group of its employees were
blatantly disregarding Epic’s right to restrict access and
use if its trade secrets and confidential information, and
TCS chose to take no steps to stop it.
Finally, defendants challenge the amount of the
jury’s punitive damages award. On this, plaintiff agrees
that the award of punitive damages must be capped at
no more than two times the amount of compensatory
damages as a result of a relatively recent change in
Wisconsin law. (Defs.’ Br. (dkt. #914) 59 (citing Wis.
Stat. § 134.09(4)(b) and § 893.043(6)); Pl.’s Opp’n (dkt.
#926) 90 (acknowledging cap under Wisconsin law and
seeking award of punitive damages of $480 million).)
Having denied defendants’ request to vacate the jury’s
$140 million compensatory award, the question is
whether an award of punitive damages capped at $280
million is so excessive as to violate defendants’ due
process rights.
“A punitive damages award ‘is excessive, and
therefore violates due process, if it is more than

76a
necessary to serve the purposes of punitive damages, or
inflicts a penalty or burden on the defendant that is
disproportionate to the wrongdoing.’” Kimble v. Land
Concepts, Inc., 2014 WI 21, ¶ 45, 353 Wis. 2d 377, 845
N.W.2d 395 (quoting Trinity Evangelical Lutheran
Church & Sch.-Freistadt v. Tower Ins. Co., 2003 WI 46,
¶ 50, 261 Wis. 2d 333, 661 N.W.2d 789). In determining
whether a punitive damages award is excessive,
Wisconsin courts are to consider: (1) the grievousness of
the acts; (2) the degree of malicious intent; (3) whether
the award bears a reasonable relationship to the award
of compensatory damages; (4) the potential damages
that might have been caused by the acts; (5) the ratio of
the award to civil or criminal penalties that could be
imposed for comparable misconduct; and (6) the wealth
of the wrongdoer. Id. at ¶ 47. This six-factor test is
considered “substantively identical” to the guideposts
described by the United States Supreme Court, which
consider: “(1) the degree of egregiousness or
reprehensibility of the conduct; (2) the disparity
between the harm or the potential harm suffered and the
punitive damages award; and (3) the difference between
the punitive damages and the possible civil or criminal
penalties imposed for the conduct.” Id. at ¶ 46 (citing
6
BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 575 (1996)).
In terms of the factors concerning the
reprehensibility, grievousness and malicious intent on
the part of TCS, the Supreme Court described in BMW
certain factors that may be relevant to determining the
6

There appears no dispute that the third guidepost and fifth
factor -- concerning the relationship to any civil or criminal
penalty -- are not applicable to this case.

77a
reprehensibility of a party’s actions, including whether
“the conduct involved repeated actions or was an
isolated incident” and whether “the harm resulted from
intentional malice, trickery or deceit, or mere accident.”
517 U.S. at 576-77. Here, plaintiff presented evidence of
TCS employees’ widespread, knowing and unauthorized
access and downloading of Epic’s confidential
information, with TCS supervisors at least aware of this
misconduct and choosing to turn a blind eye to it, if not
actively encouraging it, as well as TCS’s failure to
investigate timely or adequately the unauthorized
access and resulting spoliation of evidence.
In response, TCS principally argues that Epic was
not as careful as it should have been in protecting its
trade secrets and confidential materials. While perhaps
in theory this argument might weigh against a
significant punitive damages award, the jury was free to,
and almost certainly did, reject it by explicitly finding
for Epic on its trade secret misappropriation claim,
which necessarily required a finding that Epic took steps
to maintain the secrecy of its trade secrets. Moreover,
evidence of any failure on the part of Epic to protect its
confidential information does not undercut the
significant evidence of TCS gaining widespread
unauthorized access of Epic’s UserWeb, much less than
using that information to compete.
Courts are also directed to consider whether there
is a reasonable relationship between the punitive
damages award and compensatory damages. “Wisconsin
law expressly rejects the use of a fixed multiplier . . . to
calculate the amount of reasonable punitive damages.”
Kimble, 2014 WI 21, ¶ 55. Still, the Wisconsin Supreme

78a
Court in Kimble pointed to United States Supreme
Court cases that “in practice, [found] few awards
exceeding a single-digit ratio between punitive and
compensatory damages, to a significant degree, will
satisfy due process.” Id. at ¶ 65 (quoting State Farm
Mut. Auto. Ins. Co. v. Campbell, 538 U.S. 408, 425
(2003)). Indeed, the Supreme Court found that “[e]ven a
punitive damages award of just four times compensatory
damages can come ‘close to the line’ of violating due
process.” Id. (quoting BMW, 517 U.S. at 581).
In light of Wisconsin’s statutory cap, however, the
ratio of punitive damages to compensatory damages is
2:1. As detailed in plaintiff’s opposition, courts have
routinely approved of punitive damages awards under
Wisconsin law of 2:1 or higher. (Pl.’s Opp’n (dkt. #926)
95 (citing Kimble, 2014 WI 21, ¶ 71 (vacating punitive
damages award as excessive and reducing it to one
consistent with 3:1 ratio); Trinity Evangelical, 2003 WI
46, ¶ 65 (affirming punitive damages award with 7:1
ratio); Schwigel v. Kohlmann, 2005 WI App 44, ¶ 21, 280
Wis. 2d 193, 694 N.W.2d 467 (affirming award with 30:1
ration for “profoundly egregious conduct”); Chapes v.
Pro-Pac, Inc., 473 B.R. 295, 307 (E.D. Wis. 2012)
(upholding jury award of punitive damages with 8:1 ratio
in case where employee breached fiduciary duty).) With
the reduction to the statutory cap to 2:1, therefore, the
relationship between compensatory damages and
punitive damages here falls well within the range of
reasonable punitive awards.
If anything, TCS’s
suppression of evidence that might have justified a
higher compensatory award, argues for a larger multiple
here.

79a
Having lost that argument (or at least failing to
convince this court that an award of less than a 2:1 ratio
is necessary), TCS spends much of its brief describing
cases in which the punitive damages award was
significantly less than the $480 million. (Defs.’ Br. (dkt.
#914) 62-64, 70-73.) As Epic correctly points out,
however, the factors described by the Wisconsin
Supreme Court and the United States Supreme Court
focus on a relative comparison between compensatory
and punitive damage awards, not on the absolute amount
of either award. Moreover, the punitive damage awards
cited by TCS consist for the most part of cases in which
the compensatory damages award is significantly lower
than the $240 million here, or even the $140 million after
reduction by this court. As such, a significantly larger
punitive award was to be expected by a reasonable jury.
Of course, these distinctions are broad theoretical
considerations and, therefore, they fail to account for the
factual differences in each case. For example, courts are
directed to consider the wealth of the defendant. Here,
TCS has annual revenues in excess of $15 billion. Most,
if not all of the defendants in the cases cited by TCS, had
significantly lower revenues and net worth. See Wis.
Stat. § 895.043(4)(a) (considering wealth of a defendant
in setting punitive damages award). Consistent with
this law, the jury was instructed to “consider the
defendants’ wealth in determining what sum of punitive
damages will be enough to punish it and deter it and
others from the same conduct in the future.” (Damages
Instr. (dkt. #872) 6.) While the jury appears to have

80a
placed significant weight on this factor, the court sees no
7
error in them doing so.
Similarly, in reviewing a punitive damages award,
courts are directed to consider the potential damage to
Epic. Epic presented evidence that one of TCS’s
employees forwarded Epic’s confidential documents to
someone who did not even work for TCS. This evidence,
coupled with the uncertainty as to the possible, broader
disbursement of Epic documents to a wider group of
TCS employees or independent software freelancers,
further supports a finding that the punitive damages
award addressed potential damage to Epic. (Damages
Instr. (dkt. #872) 6 (instructing the jury to consider “the
potential damage which could have been done”).) After
reviewing the factors, therefore the court finds that a
punitive damages award of $280 million is not excessive
in violation of TCS’s due process rights under either
8
state and federal law.

7

Relatedly, defendants also contend that the jury, “egged on by
Epic’s counsel’s closing argument, seems to have used evidence of
TCS’s earnings to express their bias against a business that is not
only based out-of-town, but out-of-country, and in favor of a
prominent local business.” (Defs.’ Br. (dkt. #914) 66.) The court was
sensitive to defendants’ position as out-of-town -- indeed, out-ofcountry -- litigants, and it attempted to address any bias during voir
dire and in barring any emphasis on defendants’ citizenship during
argument. While defendants may speculate that bias influenced the
jury’s award, there is no credible basis to support it.
8

Defendants sought leave to file a reply brief to respond to
arguments raised in Epic’s opposition brief. (Dkt. #934.) Although
defendants did not presume to file a proposed brief with their
motion, the areas identified by defendants are ones for which the

81a
II. Attorneys’ Fees and Costs
In a prior opinion and order, the court denied
plaintiff’s request for entry of default judgment as a
sanction for defendants’ repeated, egregious discovery
abuses, but: (1) allowed “Epic to present evidence of
TCS’s failures to investigate and preserve data,
documents and other discoverable information to the
extent the jury finds this conduct was intentional and
undertaken in bad faith”; and (2) agreed to provide the
jury with an instruction permitting it to draw reasonable
adverse inferences with regard to likely content of the
missing information. (3/23/16 Op. & Order (dkt. #709) 45; Closing Liability Instr. (dkt. #858) 2-5.) In addition,
the court reserved until after trial whether further
monetary sanctions were appropriate. While the jury
was deliberating on damages, the court invited Epic to
submit its attorney’s fees documentation, including
invoices, if the court opted to award attorney’s fees as a
sanction. (Trial Tr. (dkt. #898) 153-56.) During that
exchange with the parties, and consistent with earlier
rulings, the court agreed to take into consideration: (1)
any mitigating steps taken by TCS (for example, its
subsequent cooperation with the court-sanctioned Stroz
investigation); (2) the fact that TCS had already been
sanctioned by the adverse inference instruction; and (3)
whether a further sanction is warranted in light of the
jury’s verdict on damages. (Id. at 155-56.)
While TCS’s failure to preserve evidence and
respond timely to discovery requests in this case was
court does not need further clarification. Accordingly, the court will
deny defendants’ motion to file a reply brief.

82a
inexcusable, the most serious prejudice done to Epic was
hindering its ability to prove specific damages. This
prejudice was largely rectified by giving Epic the
benefit of an adverse inference instruction, and allowing
Epic to proceed on a damages theory that was only
narrowed during the course of the trial. Indeed, by
virtue of the jury’s sizeable award of both compensatory
and punitive damages, Epic may have done as well (or
better) than it would have had TCS complied with its
obligation to preserve and respond timely to discovery.
Accordingly, the court finds these prior sanctions
sufficient under Rule 37 to both hold TCS accountable
for its discovery lapses and to deter similar misconduct
in the future, whether by TCS specifically or by other
entities more generally, and will deny plaintiff’s request
9
for an award of attorney’s fees as a further sanction.

9

As an aside, in its submission, plaintiff also asserts that an award
would be appropriate under Wisconsin’s civil theft statute, Wis.
Stat. § 895.446(3)(b), which provides for an award of “[a]ll costs of
investigation and litigation,” and under Wisconsin Uniform Trade
Secrets Act, Wis. Stat. §134.90(4)(c), which authorizes an award of
attorney’s fees to a prevailing party where the defendant’s
misappropriation was “willful and deliberate.” (Pl.’s Br. (dkt. #917).)
Epic failed to develop the underlying factual basis for either
statutory provision, however. As defendants point out in opposition,
Wisconsin courts have limited § 895.446(3)(b) to an award of costs,
not including attorney’s fees. See Kremers-Urban Co v. Am.
Employers Ins. Co., 119 Wis. 2d 722, 746, 351 N.W.2d 156 (1984). As
for the WUTSA, the jury was not asked to make a specific finding
of “willful and deliberate” misappropriation of trade secrets, and the
court is disinclined to intuit one after the fact. In short, the
alternative bases for an award of fees under Wisconsin statutes was
developed too little and raised too late to prevail.

83a
III. Clarification of Injunction
Finally, after the court appointed a monitor and
issued an amended permanent injunction, TCS filed a
motion for clarification, raising specific questions. The
court will address each in turn. First, TCS seeks
clarification at to the court-appointed monitor Samuel
Rubin’s communications with Epic. Epic may direct
Rubin’s activities, consistent with those outlined in the
permanent injunction. If there is a concern as to
whether Rubin’s activities extend beyond those
contemplated in the injunction, TCS was and remains
welcome to raise any concerns with the court, just as
Epic may preemptively seek guidance. As for what
Rubin may tell Epic, the court understands TCS’s
concern with his charge in paragraph 5 of the Amended
Permanent Injunction, which reads as follows:
Except by leave of court, the monitor shall
not disclose the substance or outcome of its
ongoing investigation, except for (1) the
procedures or tasks undertaken; and (2)
any evidence of violations of the
permanent injunction.
(11/2/16 Op. & Order (dkt. #959) 9.) Accordingly, the
court will modify that paragraph slightly going forward
as follows:
Except by leave of court, the monitor shall
not disclose the substance or outcome of its
ongoing investigation except for: (1) the
procedures or tasks undertaken; and (2)
specific evidence of a violation of the

84a
permanent injunction. To the extent the
monitor may have only general evidence,
he should disclose that evidence to the
court, at which time the court will
determine whether the monitor may
disclose the evidence to Epic.
Second, TCS seeks clarification on the starting date
and notification obligations for the four-year terms of
the injunction. TCS maintains that the start date should
be April 27, 2016, the date the original, permanent
injunction was entered. The court agrees. As for
repetition in paragraphs in the amended permanent
injunction requiring TCS to provide written notice to all
employees of the injunction, and requiring TCS to
provide a report describing the manner and form with
which it has complied (11/2/16 Op. & Order (dkt. #959) 9),
the issuance of the amended permanent injunction did
not trigger another notice requirement and report.
ORDER
IT IS ORDERED that:
1) Defendants Tata Consultancy Services Limited
and Tata America International Corporation’s
motions for judgment as a matter of law
pursuant to Fed. R. Civ. P. 50(a) as to the jury’s
finding of liability (dkt. ##830, 843) are
DENIED.
2) Defendants’ motion for judgment as a matter of
law pursuant to Fed. R. Civ. P. 50(a) as to the
jury’s finding of damages and to strike the

85a
damages phase of testimony of Thomas Britven
and Stirling Martin (dkt. #913) is GRANTED
IN PART AND DENIED IN PART. The
motion is granted as to a reduction of the
compensatory damage award by $100 million
and as to defendants’ request to reduce the
punitive damages award to the Wisconsin
statutory cap of $280 million. In all other
respects, the motion is DENIED.
3) Plaintiff Epic Systems Corporation’s motion for
attorney fees and costs (dkt. #916) is DENIED.
4) Plaintiff’s motion to strike or, in the alternative,
for leave to file a short reply (dkt. #932) is
DENIED AS MOOT.
5) Defendants’ motion for leave to file a reply brief
in further support of Rule 50(a) motion as to
damages (dkt. #934) is DENIED.
6) Plaintiff’s motion to amend/correct order on
motion to seal (dkt. #953) is GRANTED. The
court’s August 17, 2016, order is amended to
reflect plaintiff’s changes at dkt. #943 at p.3.
7) Plaintiff’s motion for appointment of a monitor
(dkt. #954) is DENIED AS MOOT.
8) Defendants’ motion for clarification (dkt. #962)
is GRANTED.
9) Plaintiff’s motion for hearing (dkt. #968) is
DENIED AS MOOT.

86a
Entered this 29th day of September, 2017.
BY THE COURT:
/s/ William M. Conley
WILLIAM M. CONLEY
District Judge

87a
Appendix E
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
EPIC SYSTEMS
CORPORATION,
Plaintiff,
v.
TATA CONSULTANCY
SERVICES LIMITED
and TATA AMERICA
INTERNATIONAL
CORPORATION d/b/a
TCA America,

JUDGMENT IN A
CIVIL CASE
Case No. 14-cv-748-wmc

Defendants.
This action came for consideration before the court
and a jury with District Judge William M. Conley
presiding. Partial judgment was granted by the court.
Other issues were tried to a jury, which rendered its
verdict, and the court also entered injunctive relief. The
court has now resolved all post-judgment issues and
enters this judgment.
_________________________________________________
IT IS ORDERED AND ADJUDGED that judgment
is entered in favor of plaintiff Epic Systems Corporation
against defendants Tata Consultancy Services Limited

88a
and Tata America International Corporation as to
plaintiff’s claims for breach of contract, violations of the
Computer Fraud and Abuse Act, 19 U.S.C. § 1030(g)
claims, violations of the Wisconsin Computer Crimes
Act,
Wis.
Stat.
§
943.70(2)(a),
fraudulent
misrepresentation, misappropriation of trade secrets,
unfair competition, unjust enrichment and deprivation of
property.
IT IS FURTHER ORDERED AND ADJUDGED
that judgment is entered in favor of defendants Tata
Consultancy Services Limited and Tata America
International Corporation against plaintiff Epic
Systems Corporation as to plaintiff’s conversion claim.
IT IS FURTHER ORDERED AND ADJUDGED
that judgment is entered in favor of plaintiff Epic
Systems Corporation against defendants Tata
Consultancy Services Limited and Tata America
International Corporation dismissing defendants’
counterclaims.
IT IS FURTHER ORDERED AND ADJUDGED
that judgment is entered in favor of plaintiff Epic
Systems Corporation against defendants Tata
Consultancy Services Limited and Tata America
International Corporation in the amount of
$420,000,000.00.
IT IS FURTHER ORDERED AND ADJUDGED
that judgment is entered in favor of plaintiff Epic
Systems Corporation against defendants Tata
Consultancy Services Limited and Tata America

89a
International Corporation, permanently
defendants as follows:

enjoining

1. This Permanent Injunction shall remain in full
force and effect for four years from April 27, 2016, the
date the effective date of the original Permanent
Injunction.
2. For purposes of this Permanent Injunction, the
following terms apply:
a. “Epic” shall mean plaintiff Epic Systems
Corporation.
b. “TCS” shall mean Tata Consultancy Services
Limited and Tata America International Corporation.
c. “Trade Secret” shall mean the documents
contained in Trial Exhibit No. 1247, limited to those
documents (or portions of such documents) that are a
trade secret as defined in the Wisconsin Uniform Trade
Secrets Act, Wis. Stat. § 134.90(1)(c).
d. “Confidential Information” shall mean the
documents, including the content of the documents,
contained in Trial Exhibit Nos. 2100 and 2101 that (i) are
not trade secrets; and (ii) are “confidential information”
as defined in the parties’ Standard Consultant
Agreement (Trial Ex. 3).
3. Except as expressly set forth in the opinion
above, TCS and their respective affiliates, successors,
officers, agents, servants, employees, and attorneys and
any and all other persons who are in active concert or
participation with any of them (all collectively referred

90a
to as “Enjoined Parties”), are permanently enjoined,
anywhere in the world, from the following:
a. using any Epic Trade Secret or Confidential
Information for any reason, including but not limited in
the design, development, enhancement, or marketing of
any TCS software providing solutions in the areas of
electronic health records, electronic medical records,
and hospital management systems, or any other
healthcare software solutions, including but not limited
to Med Mantra (as most broadly defined, including but
not limited to, TCS-HIS, Med Mantra in use at Apollo
Hospitals in India, British American Hospital in
Mauritius, Tata Cancer Hospital in India, Tata Cancer
Institute in India, and Med Mantra modules in
development at DaVita Healthcare Partners, Inc. and
Quest Diagnostics, Inc.) (collectively, “TCS EHR
Products”);
b. possessing or retaining any Epic Trade Secret
or Confidential Information in any form, including on
any servers or other electronic computer systems of
TCS or any other electronic or hard-copy media at TCS;
c. accessing or attempting to access any nonpublic Epic servers or systems, including Epic’ internet
portal known as UserWeb; and
d. permitting any TCS employee or consultant
or agent who performed software testing on Epic’s
software in connection with TCS’s work for Kaiser,
directly supervised or managed such testing, or
otherwise had access to any Epic Trade Secret or
Confidential Information, including, but not limited to

91a
Naresh Yallapragada, Venugopal Reddy, and Madhavi
Mukerji, to work on, or assist in, directly or indirectly,
the design, development, enhancement, or marketing of
any TCS EHR Products.
4. For the two years from April 27, 2016, unless
extended by the court upon a showing of good cause,
TCS shall not resist, hamper, delay, or otherwise
interfere with the activities of a monitor to be appointed
consistent with the procedure outlined in the above
opinion. The monitor shall be paid by Epic and have
unfettered access at any time, to monitor TCS’s
development and implementation of any TCS EHR
Products to ensure that TCS does not improperly use
any of Epic’s Trade Secrets or Confidential Information,
as described below. In particular, TCS shall permit the
monitor to:
a. Confirm that TCS employees, consultants,
and agents do not have access to Epic’s internet portal
known as UserWeb or to any of Epic’s Trade Secret or
Confidential Information.
b. Confirm that TCS does not possess or retain
any Epic Trade Secret or Confidential Information on
any of its servers, shared drives, shared domains, or
other places of electronic information storage.
c. Talk with any TCS employee who might be
able to assist the monitor in determining whether Epic
Trade Secret or Confidential Information was or is being
used in the design, development, enhancement, or
marketing of any TCS EHR Products. TCS shall provide

92a
the ombudsman or monitor with unfettered access to
these TCS employees.
d. Examine, evaluate, and analyze TCS’s
electronic information, including TCS’s proxy logs,
domain logs, active directory logs, software, servers,
shared drives, and shared domains, to determine
whether any Epic Trade Secret or Confidential
Information was or is being used or is intended to be
used in the design, development, enhancement, or
marketing of any TCS EHR Products. TCS shall provide
the monitor with unfettered access to this electronic
information.
5. Epic shall have the ability to confidentially
provide the monitor with the type of information Epic
deems necessary to monitor TCS’s development and
implementation of any TCS EHR Product to ensure that
TCS does not improperly use any of Epic’s Trade Secret
or Confidential Information.
6. Except by leave of court, the monitor shall not
disclose the substance or outcome of its ongoing
investigation except for: (1) the procedures or tasks
undertaken; and (2) specific evidence of a violation of the
permanent injunction. To the extent the monitor may
have only general evidence, he should disclose that
evidence to the court, at which time the court will
determine whether the monitor may disclose the
evidence to Epic.
7. TCS shall provide written notice to all TCS
employees who performed work for Kaiser Permanente
and all employees who work (or worked during the

93a
relevant time period) on the design, development,
enhancement, or marketing of any TCS EHR Products,
that the Permanent Injunction has been issued and its
terms.
8. Within 60 court days of the effective date of this
Permanent Injunction, TCS shall file and serve a report
in writing and under oath setting forth in detail the
manner and form with which TCS has complied with the
Permanent Injunction.
9. Violation of the Permanent Injunction shall be
subject to all applicable penalties, including contempt of
court and shifting the reasonable expenses that Epic has
paid for the monitor to TCS.
10. This court shall retain continuing jurisdiction
over Epic, TCS and the Enjoined Parties and the action
for the purpose of enforcing or modifying the Permanent
Injunction.
Approved as to form this 2nd day of October, 2017.

/s/ William M. Conley
William M. Conley
District Judge

/s/ Peter Oppeneer
Peter Oppeneer
Clerk of Court

10/3/17
Date

94a
Appendix F
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF WISCONSIN
EPIC SYSTEMS
CORPORATION,
Plaintiff,
v.
TATA CONSULTANCY
SERVICES LIMITED
and TATA AMERICA
INTERNATIONAL
CORPORATION d/b/a
TCA America,

OPINION AND
ORDER
14-cv-748-wmc

Defendants.
After summary judgment, a 10-day trial, an order
entering an injunction, and an extensive opinion
addressing remaining post-trial motions, the court
entered judgment in favor of plaintiff Epic Systems
Corporation in the amount of $420 million. In response,
defendants Tata Consultancy Services Limited and Tata
America International Corporation (collectively “TCS”),
filed a sweeping motion pursuant to Federal Rules of
Civil Procedure 50(b) and 59, largely repeating the same
arguments previously raised in its Rule 50(a) motion and
previously rejected by the court. (Dkt. #996.) In more
cursory
fashion,
defendants
also
move
for

95a
reconsideration of the court’s order granting plaintiff’s
motion to dismiss defendants’ counterclaims. For the
reasons that follow, the court will deny both motions.
OPINION
I.

Challenges to Liability Findings

Under Rule 50, judgment may be granted as a
matter of law where there is no “legally sufficient
evidentiary basis” to uphold the jury’s verdict on that
issue. Fed. R. Civ. P. 50(a). More specifically, the court
is to “examine the evidence presented, combined with
any reasonably drawn inferences, and determine
whether that evidence sufficiently supports the verdict
when viewed in the light most favorable to the nonmoving party.” E.E.O.C. v. AutoZone, Inc., 707 F.3d 824,
835 (7th Cir. 2013). In doing so, the court is not to make
credibility determinations or weigh the evidence.
Rather, the court must assure that more than “a mere
scintilla of evidence” supports the verdict, Hossack v.
Floor Covering Assocs. of Joliet, Inc., 492 F.3d 853, 859
(7th Cir. 2007), reversing “only if no rational jury could
have found for the prevailing party,” AutoZone, Inc.,
707 F.3d at 835. Moreover, “[b]ecause the Rule 50(b)
motion is only a renewal of the preverdict motion, it can
be granted only on grounds advanced in the preverdict
motion.” Wallace v. McGlothan, 606 F.3d 410, 418 (7th
Cir. 2010); see also Thompson v. Mem’l Hosp. of
Carbondale, 625 F.3d 394, 407 (7th Cir. 2010) (refusing
to consider the defendant’s argument that plaintiff failed
to demonstrate that he suffered an adverse employment
action, in part, because the defendant did not raise
argument in Rule 50(a) motion); Fed. R. Civ. P. 50 cmt.

96a
1991 Amendments (“A post-trial motion for judgment
can be granted only on grounds advanced in the preverdict motion.”).
Defendants also move for a new trial under Rule 59,
which “may be granted only if the jury’s verdict is
against the manifest weight of the evidence.” King v.
Harrington, 447 F.3d 531, 534 (7th Cir. 2006) (citing
ABM Marking, Inc. v. Zanasi Fratelli, S.R.L., 353 F.3d
541, 545 (7th Cir. 2003)). To meet this standard,
defendants must demonstrate that no rational jury could
have rendered a verdict against them. See King, 447
F.3d at 534 (citing Woodward v. Corr. Med. Servs. of Ill.,
Inc., 368 F.3d 917, 926 (7th Cir. 2004)). Here, again, the
court must view the evidence in a light most favorable to
plaintiff, leaving issues of credibility and weight of
evidence to the jury. King, 447 F.3d at 534. “The court
must sustain the verdict where a `reasonable basis’
exists in the record to support the outcome.” Id. (quoting
Kapelanski v. Johnson, 390 F.3d 525, 530 (7th Cir.
2004)).
As further context, during the course of this
bifurcated trial, defendants moved for judgment as a
matter of law under Rule 50(a). The court implicitly
denied these motions by allowing both the liability and
the damages phases to go to the jury. After the verdict,
the parties extensively briefed defendants’ arguments,
with full knowledge of the jury’s verdicts, and the court
ruled on that motion before entering judgment. As such,
it is odd for defendants to file another motion, largely
repeating verbatim their prior arguments, without, for
the most part, acknowledging the court’s prior rulings.
Rather than repeat its prior explanation for rejecting

97a
defendants’ arguments, the court, for the most part, will
simply refer to its Rule 50(a) opinion and order.
A. Proof of “Actual Damages”
Defendants argue that the court should enter
judgment in their favor on any claims that require a
showing that Epic suffered “actual damages” in the form
of “losses or other comparable harm.” (Defs.’ Opening
Br. (dkt. #997) 18.) Defendants contend that plaintiff’s
sole ground for compensatory damages was a
disgorgement of benefit theory in connection with its
unjust enrichment claim. As such, defendants argue,
plaintiff failed to present evidence of actual damages to
support
its
breach
of
contract,
fraudulent
misrepresentation, unfair competition, Computer Fraud
and Abuse Act (“CFAA”) and deprivation of property /
civil theft claims.
As an initial matter, defendants continue to blur the
distinction between a finding of injury, required for
some but not all of the claims, and a finding and
measurement of damages. See United States v.
Sapoznik, 161 F.3d 1117, 1119 (7th Cir. 1998) (“But the
question of causation is different, in criminal as in civil
law, from the question of quantification. (In tort law the
difference is between the fact of injury and the amount
of damages.)”). For example, to prove a breach of
contract claim under Wisconsin law, the plaintiff need
not prove any injury, as this court previously explained.
(See 3/2/16 Op. & Order (dkt. #538) 46 n.36.) The fact that
the jury found defendants liable as to all of these claims
does not mean the jury was obligated to award damages
on all claims. Indeed, the actual damages award more

98a
likely reflects the finding of liability on the unjust
enrichment claim, and, specifically, plaintiff’s
disgorgement of benefit theory. Regardless, as plaintiff
points out in its response, none of these claims required
proof of the type of damages defendants contend is
necessary for a finding of liability.
As for proof of damages specifically, while
defendants are correct that a plaintiff may recover outof-pocket losses for its fraudulent misrepresentation and
unfair competition claims, that is the not the sole
available basis of recovery. Instead, a plaintiff may seek
damages in the form of the value of the benefit received
through the commission of the tort, which is essentially
the same as the unjust enrichment disgorgement of
benefits theory. See Pro-Pac Inc. v. WOW Logistics Co.,
721 F.3d 781, 786 (7th Cir. 2013) (damages for the “value
of the benefit” unjustly received are available for tort
claims regardless of whether the plaintiff formally
alleged an unjust enrichment claim). Similarly, plaintiff’s
deprivation of property/ civil theft claim under Wis.
Stat. § 895.446 requires that a person suffer “damage or
loss,” but the statute provides that “actual damages” can
include the retail value of stolen property, which is
analogous with a damages claim premised on the value
of the trade secrets and confidential information taken
by defendants.
Defendants’ challenge to an award on plaintiff’s
CFAA claim fails for an additional reason. While the
CFAA requires that a civil plaintiff suffer “damage or
loss,” 18 U.S.C.A. § 1030(g), the term “loss” includes:

99a
any reasonable cost to any victim,
including the cost of responding to an
offense, conducting a damage assessment,
and restoring the data, program, system,
or information to its condition prior to the
offense, and any revenue lost, cost
incurred, or other consequential damages
incurred because of interruption of
service.
Id. at § 1030(e)(1). Here, defendants stipulated to
plaintiff’s evidence of a $9,277 loss. (Pl.’s Opp’n (dkt.
#1007) 26 (citing Trial Tr. (dkt. #896) 89 (counsel for
defendants stating that they are going to “drop the
whole matter of . . . the loss” under CFAA claim and the
court responding that it will delete the instruction)).)
Having stipulated to this loss, defendants cannot now
challenge plaintiff’s failure to prove “actual damages.”
B. Failure to Instruct on “Actual Damages”
Element
Closely related to the first challenge, defendants
further argue that the court should grant judgment in
their favor on the above-mentioned claims because the
jury was never asked to find, and never found, that Epic
suffered “actual damages.” Because the court has
rejected defendants’ argument that such a finding was
required as to each of these claims, however, the court
similarly rejects any argument based on the court’s
failure to instruct the jury or the lack of a jury finding.
Critically, with respect to the damages award, the jury
was instructed properly that they could award damages
for “the value of the benefits obtained by TCS because

100a
of TCS’s wrongful conduct.” (Damages Instr. (dkt. #872)
3.)
C. Misappropriation of Trade Secrets Claim
Next, defendants again challenge the jury’s finding
of liability as to the misappropriation of trade secrets
claim, Wis. Stat. § 134.90, on the basis that plaintiff failed
to demonstrate that it protected the secrecy of these
alleged trade secrets. The court previously considered
and rejected this argument, and defendants offer no
meritorious basis for revisiting it. (See 9/29/17 Op. &
Order (dkt. #976) 4-5.)
D. Unfair Competition and Unjust Enrichment
Claims
Defendants offer three bases for judgment in their
favor as to these claims. First, defendants contend that
plaintiff’s unjust enrichment claim fails as a matter of
law because the contract between TCS and Epic bars
such a claim. Plaintiff contends that this challenge has
been waived, having failed to raise it in their original
Rule 50(a) motion. However, where the challenge is
purely a legal challenge -- not a sufficiency of the
evidence or a jury instruction challenge -- the court
agrees with defendants that it need not be raised in a
Rule 50(a) motion. See Havco Wood Prod., LLC v. Indus.
Hardwood Prod., Inc., No. 10-CV-566-WMC, 2013 WL
1497429, at *3 (W.D. Wis. Apr. 11, 2013) (explaining that
where a matter of law is raised as a basis for relief, there
is no prejudice to the nonmovant) (citing Warlick v.
Cross, 969 F.2d 303, 308 (7th Cir. 1992)).

101a
Even so, this first challenge fails on its merits. The
parties’ contract did not govern TCS’s impermissible
access through the Epic UserWeb portal. Indeed, the
record demonstrates that TCS was denied direct access
to the UserWeb despite its repeated requests. (Trial Ex.
296 at 3 (TCS presentation explaining that because
“TCS is not an Epic partner . . . they are not allowed to
access Epic Systems Userweb Portal”); Trial Ex. 303 at
6 (TCS acknowledging that because it “could not reach
an agreement with EPIC,” TCS associates are not
“allowed to connect to the EPIC User Web”).) Because
of this, not only did the contract not cover TCS’s
impermissible use, but there was no reason for Epic to
negotiate away a contractual remedy for unjust
enrichments arising out of a fundamental breach of that
contract. Regardless, even if recovery were only
available as a breach of contract damage, the jury found
just such a breach and was entitled to find the benefit
conferred on defendants as a result of that breach was
the best measure of damages. (See Damages Instr. (dkt.
#872) 3 (instructing the jury that they may award Epic
“the value of the benefits obtained by TCS because of
TCS’s wrongful conduct,” and specifically instructing
them that “the appropriate remedy may be the benefits,
profits, cost savings, or other advantages gained by TCS
because of its use of Epic’s confidential information or
trade secrets” ).)
Second, defendants argue that there was insufficient
evidence from which a reasonable jury could find a
benefit conferred on defendants, namely that defendants
used the information obtained to “develop competing
software.” (Defs.’ Opening Br. (dkt. #997) 29.) In its prior

102a
order, the court extensively addressed both the
evidence supporting a finding of improper use and what
kind of use was required to support a finding of liability
as to unjust enrichment and an award of damages on this
claim or breach of contract. (9/29/17 Op. & Order (dkt.
#976) 4-5 (detailing evidence to support a finding of
improper use); 9-10 (explaining evidentiary basis for
jury’s award of compensatory damages based on the
competitive analysis).) Defendants have advanced no
reason for the court to revisit this analysis.
Third, with respect to the unfair competition claim,
defendants argue that plaintiff failed to put forth any
evidence of a competitive use to sustain the jury verdict
on that claim. Here, too, as the court explained
previously, there was ample evidence to support the
jury’s award of compensatory damages based on TCS’s
development of its comparative product analysis, which
gave it a leg up in developing both an entry strategy into
the U.S. health software market and improving the
competitiveness of its Med Mantra software product.
(Id. at 9-10.)
E. Fraud, CFAA and Deprivation of Property
Claims
Defendants also raise various challenges to the
jury’s finding of liability on plaintiff’s fraud, CFAA and
deprivation of property claims. First, defendants
challenge plaintiff’s deprivation of property claims
under Wis. Stat. § 895.446 because there was no
“movable property” involved. The court previously
considered this argument and rejected it, and again sees

103a
no grounds for revisiting it. (9/29/17 Op. & Order (dkt.
#976) 6 (citing 4/1/16 Op. & Order (dkt. #776) 7-9).)
Second, with respect to the fraudulent
misrepresentation claim, defendants argue that
judgment should be entered in their favor because
plaintiff failed to present evidence of their intent to
induce Epic to do something that would cause it
economic harm. In particular, defendants argue that the
only evidence introduced was their intent to obtain
information to help their customer Kaiser. The court
previously addressed this argument as well, explaining
that the test is whether Epic relied on the
misrepresentation and whether its reliance was
reasonable. Having already rejected defendants’
framing of the legal requirements, defendants offer no
further basis to challenge the jury’s finding with respect
to this claim. (See 9/29/17 Op. & Order (dkt. #976) 6-7
(rejecting same argument in Rule 50(a) motion).)
Third, and weakest of all, defendants argue that
there is no evidence to support the jury’s finding that
TCS employees shared passwords with an intent to
deceive in violation of the CFAA. Again, this is a wellworn ground, and defendants offer no new basis to
challenge the court’s previous finding of more than
sufficient evidence to conclude that TCS employees
were “specifically motivated to improperly use other’s
passwords for an improper purpose (i.e., that TCS access
UserWeb documents for a purpose other than to enable
TCS employees to do their jobs for their mutual
customer Kaiser).” (Id. at 7; see also id. at 18 (describing
TCS employees’ widespread, improper use).)

104a
F. Adverse Inference Instruction
Next, defendants seek judgment as a matter of law
on the basis that the court’s adverse inference
instruction was too broad.1 Specifically, defendants
argue that the adverse inference instruction was a “kind
of wild card,” invoked to “fill complete holes in the
plaintiff’s proof.” (Defs.’ Opening Br. (dkt. #997) 34.)
There are several problems with defendants’ argument.
Initially, as the court previously explained, plaintiff
submitted ample evidence to support the jury’s findings
even without the benefit of the adverse inference
instruction. (9/29/17 Op. & Order (dkt. #977) 4-6
(describing evidence to support a jury finding as to the
various claims).) More importantly, the jury was
properly instructed as to the requirements before
making any adverse inference, as well as the reasonable
inference the jury may make based on that finding. (See
Closing Instr. (dkt. #858) 3-4.) Third, plaintiff submitted
an evidentiary basis for the jury to conclude that an
adverse inference was appropriate (namely, evidence
that defendants failed to timely preserve web proxy logs
and other electronic data, coupled with evidence of
defendants’ own, deliberate failure to conduct its own
timely investigation) after being put on notice of possible
breaches and acts of fraud by its client, Kaiser.

1

Defendants also challenge the court’s decision permitting an
adverse inference instruction and allowing Sam Rubin to testify,
since his testimony was premised on the adverse inference
instruction. For the reasons previously provided, there were good
grounds to provide the adverse inference instruction. (3/23/16 Op. &
Order (dkt. #709).) Defendants’ briefing provides no basis for
reconsidering that decision.

105a
G. Impact on Liability of $100 Million Reduction
in Damages Verdict
In its prior opinion and order, the court reduced the
compensatory damages award by $100 million, finding
that there was not a sufficient evidentiary basis to
support the category of damages for defendants’ use of
“other information.” (9/29/17 Op. & Order (dkt. #976) 1012.) From this decision, defendants now argue that “if
the jury found liability on the conduct that was
insufficient to support the $100 million award, the
underlying liability finding is invalid.” (Defs.’ Opening
Br. (dkt. #997) 37.) This argument is frivolous. This case
was bifurcated, with the jury determining liability before
hearing any evidence or argument or being instructed on
damages. As such, those liability findings stand alone,
separate and apart from the subsequent determination
to award Epic $140 million for use of the competitive
analysis and $100 million for use of “other information.”
The court sees no basis for reconsidering the jury’s
liability determinations, simply because there was an
insufficient basis to assess substantial monetary
damages for use of “other information” wrongfully taken
by the defendants.
H. New Trial
Alternatively, defendants seek a new trial on
liability in a cursory fashion under Federal Rule of
Evidence 59. Having found no merit to their arguments
in support of judgment as a matter of law in defendants’
favor, the court similarly finds no reason to grant a new
trial.

106a
II. Challenges to Damages Verdict2
A. Evidence of Use of Trade Secrets to Create
Comparative Analysis
Defendants argue that to the extent the trade
secrets claim was the basis for the jury’s damages
award, Epic failed to offer any evidence to support a
finding that stolen trade secrets were used in making the
comparative analysis. Specifically, defendants contend
that the testimony of Epic’s officer, Stirling Martin, and
expert, Wes Rishel, was insufficient to establish a link
between the downloaded UserWeb documents
containing trade secrets and defendants’ development of
their comparative product analysis. The court disagrees.
Martin testified credibly about the substantial value and
importance of the Foundations documents, and in
particular the configuration component of Foundations.
This formed a sufficient basis for the jury to conclude
that defendants used Epic trade secrets in developing
their comparative analysis. (Trial Tr. (dkt. #907) 70-71;
see also Trial Tr. (dkt. #900) 14-15, 27-28; Trial Tr. (dkt.
#889) 140.)
While the Seventh Circuit in IDX Systems Corp. v.
Epic Systems Corp., 285 F.3d 581 (7th Cir. 2002),
rejected the plaintiff’s attempt to label its software in its
entirety a trade secret, here, Epic identified specific
documents containing closely guarded trade secrets that
2

Defendants renew their argument that the damages case as a
whole was unfair in light of the court’s original decision to strike the
damages phase of the case. The court already rejected this
argument for reasons laid out in its prior opinion and order and will
not revisit it again. (See 9/29/17 Op. & Order (dkt. #976) 8-9.)

107a
cost hundreds of millions to develop and protect, and it
adequately tied defendants’ unauthorized access to
those documents to the development of an arguably
valuable comparative analysis. Nothing more was
required. Moreover, as this court has repeatedly
explained, the compensatory damages award could
extend beyond the value of the trade secrets to
encompass the value of other confidential information
obtained improperly. (9/29/17 Op. & Order (dkt. #976)
14.)3
B. Britven’s R&D Theory
Defendants also challenge the jury’s compensatory
damages award, arguing that plaintiff’s expert Thomas
Britven’s testimony relied on an assumption not borne
out by the evidence -- that defendants “actually used
Epic’s confidential information for competitive
advantage.” (Defs.’ Opening Br. (dkt. #997) 49.) The
court already addressed this argument above, as well as
in prior opinions, and found an ample evidentiary basis
for the jury to conclude that defendants used plaintiff’s
trade secrets and other confidential information to
develop the comparative analysis, in addition to
informing defendants’ U.S. entry strategy and

3

Defendants again challenge the court’s decision to prevent
defendants’ last-minute introduction of evidence supposedly
showing that the comparative analysis could have been compiled by
publicly-available information. Having amply explained its
reasoning for that decision, based primarily on defendants’ repeated
discovery violations, the court sees no reason to expound on this
challenge further. (9/29/17 Op. & Order (dkt. #976) 13-14 (citing
3/23/16 Op. & Order (dkt. #703) 7-8).)

108a
improving its Med Mantra product. (See supra Opinion §
I.D (citing 9/29/17 Op. & Order (dkt. #976) 4-5, 9-10, 12).)
Nevertheless, defendants persist in arguing that
Britven’s testimony did not establish that the jury’s
award actually reflects defendants’ cost savings in using
plaintiff’s confidential information. To the contrary, as
explained in the court’s prior opinion and order, plaintiff
provided an adequate evidentiary basis for the jury to
award $140 million in compensatory damages under
plaintiff’s avoided R&D theory. (9/29/17 Op. & Order
(dkt. #976) 9 (setting forth evidence that “the cost of
developing this information was roughly $200 million,
but crediting lower costs for IT work in India would still
cost $130 to $140 million”).) As this court has further,
repeatedly explained, defendants need not have been
successful or profitable in their use of Epic’s confidential
information to allow for this award. (Id. at 12-13 (citing
Restatement (Third) of Restitution and Unjust
Enrichment § 51 (2011); Cosgrove v. Bartolotta, 150 F.3d
729, 734 (7th Cir. 1998)).)
C. Curative Instruction
Next, defendants challenge the court’s failure to
give a curative instruction as requested by defendants
after the closing arguments on liability. Defendants had
requested that the court instruct the jury based on a
reference made by plaintiff’s counsel during the closing
argument to the effect that defendants now had Epic
trade secrets “just sitting . . . somewhere on a shelf” to
be used in the future in developing products. (Defs.’
Opening Br. (dkt. #997) 56 (citing Trial Tr. (dkt. #905 at
34); see also id. at 98 (“Why would TCS think it’s okay to

109a
hide Epic’s information until this case is over and then
take it off the shelf and aggressively pursue the U.S.
market?”).) Specifically, defendants proposed the
following instruction:
As you may recall, to prove its unjust
enrichment claim, Epic must prove by a
preponderance of the evidence that,
among other things, it conferred a benefit
upon TCS. If the thing that a plaintiff
claims is a benefit in fact has no value until
it is actually used by the defendant, then
the defendant has not been unjustly
enriched by mere possession of that thing.
(Defs.’ Opening Br. (dkt. #997) 57 (citing Defs.’ Request
(dkt. #844) 2-3).)
In contrast, the liability instruction for the unjust
enrichment claim correctly informed the jury that it had
to find a “benefit conferred upon TCS by Epic’s
confidential non-trade secret information” and that “[a]
loss to the plaintiff without an actual benefit to the
defendant is not recoverable as an unjust enrichment.”
(Liability Closing Instr. (dkt. #858) 10-11.) As such,
defendants’ proposed curative instruction was not
necessary. More critically -- since this challenge really
concerns the jury’s award of damages -- the jury was
further and properly instructed in that phase of the trial
that “the value or threat of future use, including future
sales, does not serve as a basis for an award of
compensatory damages, but is rather addressed by the
court’s injunction.” (Suppl. Damages Instr. (dkt. #873)
1.) As such, the jury was appropriately instructed, and

110a
defendants were in no way prejudiced by the court’s
refusal to give the specific curative instruction they
requested.
D. New Trial
Finally, as they did in challenging the liability
verdict, defendants move in a cursory fashion for a new
trial on compensatory damages. Having rejected the
specific bases described above, the court similarly will
deny that motion.
III. Challenges to Punitive Damages Award
A. No Waiver
With respect to the jury’s punitive damages award,
defendants initially contend that they did not waive any
challenge because they objected to the punitive damages
instruction in their pre-trial submissions, while
acknowledging that they never moved for judgment as a
matter of law. The court agrees that this early objection
would preserve a general challenge to a punitive
damages award, although any challenge specific to
plaintiff’s failure to meet its evidentiary burden would
be waived by defendants’ failure to bring a timely Rule
50(a) motion. Regardless, defendants’ challenges have
no merit, as the court explained in its prior opinion and
order, and briefly summarizes below.
B. Availability of Punitive Damages
Defendants argue that punitive damages are not
available because there are no “actual damages,”
essentially repeating the argument made at the

111a
beginning of their brief. For the reasons explained
above, the court finds no merit in this argument (see
supra Opinion § I.A) and, therefore, rejects it as a basis
for challenging the punitive damages award.
Defendants also argue that a punitive damages
award was only available if the compensatory damages
award was premised on plaintiff’s misappropriation of
trade secrets, fraudulent misrepresentations and unfair
competition claims because only those claims permit an
award of punitive damages under Wisconsin law. As
plaintiff explains in its opposition brief, Wisconsin law
also allows for the possibility of an award of punitive
damages in cases, such as here, where the compensatory
damages award is restitutionary in nature, and a
defendant’s conduct merits such an award. (Pls.’ Opp’n
(dkt. #1007) 81 (discussing Pro-Pac, Inc. v. WOW
Logistics Co., 721 F.3d 781, 788 (7th Cir. 2013)
(“Regardless of whether the bankruptcy court awards
damages premised on gain to WOW (i.e., restitutionary
damages) or loss to Pro—Pac (i.e., compensatory
damages), punitive damages are also available, if
otherwise appropriate.”)).)
C. Legally Sufficient Basis
Defendants next argues that plaintiff failed to put
forth evidence that their conduct was “willful and
malicious,” a necessary finding for any punitive damages
award premised on misappropriation of trade secrets, or
that they acted with an intentional disregard for Epic’s
rights, as required to support a finding of punitive
damages under plaintiffs’ common law claims.

112a
Because defendants failed to raise either a challenge
to the jury instruction or to the sufficiency of the
evidence in a proper pre-verdict Rule 50(a) motion,
however, the court agrees with plaintiff that this
challenge has been waived. (See 9/29/17 Op. & Order
(dkt. #976) 15.) For the reasons previously provided,
there was nevertheless ample evidence for the jury to
conclude that defendants acted with an intentional
disregard of Epic’s rights. (Id. at 16-17.)
D. Impact of Vacating $100 Million Award
Defendants further argue that the punitive damages
award must be vacated because of the court’s reduction
of the compensatory damages award, reasoning that “we
know that when the jury determined that punitive
damages were warranted, it clearly had in mind a
broader range of uses than that which was legally
sustainable. And we cannot now know whether these
additional (speculative) uses of the information were
material to the jury’s determination to award punitive
damages or to the amount of those damages.” (Defs.’
Opening Br. (dkt. #997) 67.) Nonsense. The court’s
decision vacating a portion of the compensatory
damages award does not undermine the jury’s award of
punitive damages, because the jury was not instructed
to tie punitive damages to a particular type of use of
Epic’s trade secrets and confidential information, nor to
defendants’ use more generally. Moreover, the court
previously applied the cap under Wis. Stat. § 134.09(4)(b)
and § 893.043(6) to limit the punitive damages award to
no more than two times the compensatory damages
award. (9/29/17 Op. & Order (dkt. #976) 17.)

E. Grossly
Challenge

113a
Excessive

and

Due

Process

Finally, defendants contend that the punitive
damages award is grossly excessive and in violation of
federal and state law requirements. The court has
already considered and rejected these concerns in depth
in its prior opinion and order. (9/29/17 Op. & Order (dkt.
#976) 17-22.)4
IV. Motion for Reconsideration of Order Dismissing
Counterclaim
In addition to challenging the jury’s verdict and
entry of judgment on plaintiff’s clams, defendants seek
relief from the court’s dismissal of defendants’
counterclaims, arguing that “[a]t a minimum, TCS
should have been permitted to seek discovery on its
counterclaims and put in evidence in support of them.”
(Defs.’ Original Br. (dkt. #997) 83.) As set forth in its
opinion and order on plaintiff’s motion to dismiss
defendants’ counterclaims, the jury’s finding of liability
and defendants’ own representations made during the
trial on plaintiff’s claims undermine defendants’ ability
to allege in good faith necessary elements of their
counterclaims. (9/29/17 Op. & Order (dkt. #977) 12-14.)
As such, the decision to dismiss these counterclaims was
not based on any evidentiary failing -- which would be an
improper consideration at the pleading stage -- but
rather a defect in the pleadings themselves, as described

4

For these same reasons, the court also rejects defendants’ request
for remittitur.

114a
in detail in that decision. (Id.) Defendants offer no reason
to reconsider that ruling here.
ORDER
IT IS ORDERED that defendants Tata
Consultancy Services Limited and Tata America
International Corporation’s motions for judgment as a
matter of law pursuant to Fed. R. Civ. Proc. 50(b), for a
new trial pursuant to Fed. R. Civ. Proc. 59 and for
reconsideration of dismissal of counterclaims pursuant
to Fed. R. Civ. Proc. 60 (dkt. #996) are DENIED.
Entered this 22nd day of March, 2019.
BY THE COURT:

/s/ William M. Conley
WILLIAM M. CONLEY
District Judge

